<html>
<title> - OFFICER PERSONNEL MANAGEMENT AND THE DEFENSE OFFICER PERSONNEL MANAGEMENT ACT OF 1980</title>
<body><pre>[Senate Hearing 115-861]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-861

                    OFFICER PERSONNEL MANAGEMENT AND
                     THE DEFENSE OFFICER PERSONNEL
                         MANAGEMENT ACT OF 1980

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                               PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 24, 2018

                               __________

         Printed for the use of the Committee on Armed Services
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


                 Available via: http://www.govinfo.gov
                 
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-116 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
    
                      COMMITTEE ON ARMED SERVICES
                     
                      JOHN McCAIN, Arizona, Chairman

                            
JAMES M. INHOFE, Oklahoma, Chairman	JACK REED, Rhode Island
ROGER F. WICKER, Mississippi		BILL NELSON, Florida
DEB FISCHER, Nebraska			CLAIRE McCASKILL, Missouri
TOM COTTON, Arkansas			JEANNE SHAHEEN, New Hampshire
MIKE ROUNDS, South Dakota		KIRSTEN E. GILLIBRAND, New York
JONI ERNST, Iowa			RICHARD BLUMENTHAL, Connecticut
THOM TILLIS, North Carolina		JOE DONNELLY, Indiana
DAN SULLIVAN, Alaska			MAZIE K. HIRONO, Hawaii
DAVID PERDUE, Georgia			TIM KAINE, Virginia
TED CRUZ, Texas				ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina		MARTIN HEINRICH, New Mexico
BEN SASSE, Nebraska			ELIZABETH WARREN, Massachusetts
TIM SCOTT, South Carolina              	GARY C. PETERS, Michigan
                                                          
             
                 Christian D. Brose, Staff Director
                 Elizabeth L. King, Minority Staff Director

             

_________________________________________________________________

                       Subcommittee on Personnel

   THOM TILLIS, North Carolina, 	
             Chairman
JONI ERNST, Iowa		     KIRSTEN E. GILLIBRAND, New York
LINDSEY GRAHAM, South Carolina	     CLAIRE McCASKILL, Missouri
BEN SASSE, Nebraska         	     ELIZABETH WARREN, Massachusetts   
                                     
                                     

                                  (ii)

                             C O N T E N T S

_________________________________________________________________

                            January 24, 2018

                                                                   Page

Officer Personnel Management and the Defense Officer Personnel        1
  Management Act of 1980.

Chu, Hon. David S. C., President, Institute for Defense Analyses.     4
Levine, Hon. Peter K., Senior Research Fellow, Institute for
  Defense Analyses...............................................     7
Kane, Dr. Timothy, Fellow, Hoover Institution, Stanford              11
  University.
Seamands, Lieutenant General Thomas C., USA, Deputy Chief
  of Staff, G-1..................................................    26
Burke, Vice Admiral Robert P., USN, Deputy Chief of Naval
  Operations, N-1................................................    29
Grosso, Lieutenant General Gina M., USAF, Deputy Chief of Staff 
  for
  Manpower, Personnel and Services...............................    35
Rocco, Lieutenant General Michael A., USMC, Deputy Commandant for
  Manpower and Reserve Affairs...................................    37

Questions for the Record.........................................    48

                                 (iii)


 
                    OFFICER PERSONNEL MANAGEMENT AND
                     THE DEFENSE OFFICER PERSONNEL
                         MANAGEMENT ACT OF 1980

                              ----------                              


                      WEDNESDAY, JANUARY 24, 2018

                      United States Senate,
                         Subcommittee on Personnel,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:09 p.m. in 
Room SR-222, Russell Senate Office Building, Senator Thom 
Tillis (chairman of the subcommittee) presiding.
    Committee members present: Senators Tillis, Ernst, 
Gillibrand, McCaskill, and Warren.

            OPENING STATEMENT OF SENATOR THOM TILLIS

    Senator Tillis. First I apologize for being late. This 
committee is now open.
    I will start with some brief comments and then pass it over 
to the ranking member.
    I want to thank some familiar faces that we were able to 
spend some time with last week. I am looking forward to your 
testimony before the committee.
    The Personnel Subcommittee of the Senate Armed Services 
Committee meets this afternoon to receive testimony from 
military and civilian witnesses on officer personnel management 
and possible reforms to the Defense Officer Personnel 
Management Act, commonly referred to as DOPMA.
    Officer personnel management is a combination of statute, 
regulation, culture, and tradition that determines how military 
leaders are recruited, trained, retained, promoted, assigned, 
and compensated. This is a very complex topic, and changes to 
longstanding practices must be carefully considered before 
being implemented. By all accounts, today's system largely 
serves its intended purpose.
    A personnel system is not an end unto itself. Rather, the 
military's officer personnel system must achieve desired 
objectives to increase the lethality and effectiveness of the 
force.
    DOPMA was passed in 1980. It was back when leisure suits 
were popular and disco.
    [Laughter.]
    Senator Tillis. To achieve the desired objectives at that 
time, namely in 1980, the Congress was concerned about 
providing a fully ready officer corps comprised of youthful, 
vigorous, and, at the time, primarily men. These outcomes were 
deemed necessary to defeat the Soviet threat that faced our 
Nation at that time.
    I am concerned that the outcomes DOPMA was designed to 
achieve are growing increasingly irrelevant for some threats 
facing today's military.
    I hope today our witnesses will provide us with some 
clearly defined outcomes that an updated personnel system 
should seek to achieve.
    DOPMA's authors never envisioned the post-Cold War military 
as presently constructed. Today's force is 43 percent smaller 
than the military of 1980 and is constantly engaged in ways 
never predicted during the Cold War. Repeated overseas combat 
deployments strain the more traditional warfighting career 
fields while at the same time new military domains require 
entirely different officer skill sets. We must ask ourselves, 
``Can a personnel system designed for an Industrial Age 
military be successful in the Information Age?''
    DOPMA's primary weaknesses are threefold. First, the system 
is unable to quickly provide the officers required to respond 
to unforeseen threats that demand unexpected skill sets. 
Secondly, the system is unable to effectively respond to rapid 
changes in the defense budget, resulting in inefficient and 
systemic surpluses or shortages of officer manpower. Lastly, 
DOPMA functions as a one-size-fits-all solution, which does not 
allow the Services much ability to differentiate amongst 
themselves and among various officer career fields. I welcome 
your thoughts on how to improve the system to mitigate these 
shortcomings.
    Today we are fortunate to have a distinguished group of 
witnesses to discuss these themes and help us seek out areas 
where the Congress can provide assistance.
    On the first panel, we have the Honorable David Chu, 
President of the Institute for Defense Analyses and former 
Under Secretary of Defense for Personnel and Readiness. 
Welcome, Dr. Chu. The Honorable Peter Levine, a senior research 
fellow at the Institute for Defense Analyses and also former 
Under Secretary of Defense for Personnel and Readiness. 
Welcome. Dr. Tim Kane, a fellow at the Hoover Institution and 
author of ``The Total Volunteer Force.'' I will introduce the 
second panel when we make the transition.
    I want to thank all the witnesses.
    [Audio disruption.]
    Senator Tillis.--very important topic.
    Ranking Member Gillibrand?

           STATEMENT OF SENATOR KIRSTEN E. GILLIBRAND

    Senator Gillibrand. Thank you, Mr. Chairman.
    I join you in welcoming our witnesses today as we discuss 
career management of our military officers. I am pleased that 
we have outside experts as witnesses, as well as military 
personnel chiefs, to address improving the talent management of 
our military officers.
    I have been and remained concerned about our military 
promotion practices that incentivize officers to be generalists 
on a career path to become general or flag officers and 
ultimately to be chief of the military service rather than 
allowing officers to develop expertise in specific military 
skills. I understand the importance of officers having a broad 
understanding of their service in the military, but in some 
cases, this undermines our military's ability to do its job.
    Senator Ernst and I have been pushing the Services, for 
example, to develop judge advocates with complex litigation 
skills rather than requiring them to become well-rounded 
generalists in the practice of military law. As in the civilian 
sector, we need career prosecutors with years, even decades, of 
prosecutorial experience to prosecute complex cases, 
particularly those related to sexual assault. A good prosecutor 
with just a few years and a limited number of cases is not 
going to be as good as a highly experienced prosecutor who has 
prosecuted a large number of complex cases. This same rationale 
would also apply to other specialty areas such as cyber, 
acquisition, aviation, medical, and newly developing areas like 
artificial intelligence.
    As we look at improving the officer personnel system, we 
should also review the qualifications for receiving a 
commission as a military officer. Is it really necessary that 
an individual with significant cyber expertise go through all 
the same military type training as an infantry officer? If a 
cyber expert's military role will be in an office setting 
performing cyber functions on an office computer, does he or 
she need to be proficient with a firearm or meet the same 
physical fitness requirements as a combat arms officer? If our 
current approach means that we are not getting the right people 
in these jobs, then the requirements need to be tailored for 
the specialty involved and flexible enough to bring in the 
talent we need.
    Another area we should explore when it comes to cyber is 
making it easier for civilian experts to join the military so 
that when we identify individuals with sophisticated skills, 
education, and experience, we can bring them in at a higher 
rank commensurate with their military responsibilities.
    We must also be cognizant of the fact that even if we 
provide the military with greater authority and more 
flexibility for officer personnel management, that does not 
mean that these authorities will be used as we intend them to 
be used. This has been our experience with efforts to have our 
Services conduct a pilot program for a career litigation track, 
a program that the Navy already has in place. Once we provide 
new authority, it will take continual congressional oversight 
to ensure that the new authorities are used as intended.
    Mr. Chairman, I look forward to hearing from our witnesses 
about what is working and what is not working with our officer 
personnel management system and then putting our heads together 
to develop meaningful changes that will improve the system and 
ensure we are recruiting, growing, and retaining the right 
people.
    Senator Tillis. Thank you.
    Before we get into any questions, we would welcome you to 
have any opening comments that you may want to make. I have got 
a lot of questions. So we want to start with Dr. Chu.

  STATEMENT OF HON. DAVID S. C. CHU, PRESIDENT, INSTITUTE FOR 
                        DEFENSE ANALYSES

    Dr. Chu. Thank you, Mr. Chairman and Members of the 
committee. It is a privilege to appear before you this 
afternoon to discuss the Defense Officer Personnel Management 
Act, or DOPMA.
    I should stress these are my own views. They do not reflect 
a position by the Institute for Defense Analyses or our 
research sponsors.
    I do have a short statement that I hope might be offered 
for the record, if you would permit.
    In my judgment, DOPMA's strength is also its weakness. With 
the just-revised retirement system as it used to be 
administered and given the fact that the compensation for 
officers is largely tied to grade, together that creates what 
you said, Mr. Chairman, which is a one-size-fits-all solution. 
The difficulty that raises is across skill areas, as Senator 
Gillibrand has emphasized. It is not clear that you want the 
same experience level in all functions of the military 
Services.
    That has been a tension for many years in the Department. 
On the promotion front, the Services have, to some extent, 
relieved that tension with separate competitive categories, 
done that for a long time for the professions, clergy, lawyers, 
clinicians, especially doctors. There have been other 
solutions. The Army has a different way of accessing and 
managing many of its pilots, the warrant officer status for its 
community. You have small solutions like the permanent 
professors at the United States Military Academy and the other 
military academies.
    Before we go to change the rules, I would urge we have more 
of a focus on what results we want, what kind of experience 
profiles are really helpful, as Senator Gillibrand suggested in 
the cyber realm as one example. You might want in some areas 
the pyramid that is the current day where lots of people come 
in at the bottom, the operational community likes that. Only a 
few rise to the top. But it is also possible you want an 
inverted pyramid where you have mostly experienced personnel 
and you do not spend a lot of effort on training junior 
personnel. Military attaches are an example, you might argue, 
of such a situation.
    In different communities, you might want a ``Michelin 
man,'' that is to say many people in the middle, some at the 
top with deep experience. Acquisition is an excellent example. 
That would need lateral entry to actually work since you would 
not want to take in large numbers of junior people to train 
them on your watch. You would want to acquire them from the 
civil sector.
    In some areas, you might want a cylinder. Pilots are an 
example where you want people to spend a long time in one 
professional area. The Marine Corps has talked about that now a 
bit regarding cyber personnel.
    I do think ultimately, as you suggested, Mr. Chairman, this 
turns on service culture. What would the Services say are 
communities where they need a different experience profile 
because ultimately they have to administer this system to make 
it a success?
    Put a little differently, I would start with the experience 
profile we would like for different communities, and subject to 
any constraints that various parties wish to impose, including 
the Congress' concern with grades, then solve for what you have 
to do with the other instruments at your disposal whether that 
is the retirement system, whether that is the compensation that 
is offered, or whether that is perhaps bonus authority for 
officer communities that the Department does not now have in 
order to get to the results that you need to serve America 
well.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Chu follows:]

                  Prepared Statement by David S.C. Chu
    Mr. Chairman and Members of the subcommittee: It is a privilege to 
appear before you. I should emphasize that the views expressed are my 
own, and do not reflect any position by the Institute for Defense 
Analyses or our research sponsors.
    You've asked if changes should be considered to the Defense Officer 
Personnel Management Act (DOPMA). Critics have advocated changes for 
some time. \1\ It's long been recognized that shifts in the nature of 
needed military capabilities affect the demands for personnel, 
especially the nature and level of experience desired. Now, the new 
military retirement system allows the Department of Defense (DOD) to 
aim at varying career lengths across skill areas, in a manner that is 
fair to the individual.
---------------------------------------------------------------------------
    \1\ See, for example, Panetta, Leon, et al, Task Force on Defense 
Personnel Co-Chairs. Building a F.A.S.T. Force: A Flexible Personnel 
System for a Modern Military. Recommendations from the Task Force on 
Defense Personnel. Bipartisan Policy Center: March 2017, pp. 20-25; 
Rostker, Bernard. Reforming the American Military Officer Personnel 
System: Addendum. Santa Monica, CA: RAND Corporation, 2016. https://
www.rand.org/pubs/testimonies/CT446z1.html; Philpott, Tom. ``Rumsfeld 
Wants Longer Careers, Fewer Moves.'' Kitsap Sun 22 August 2001; 
``Ensuring Quality People in Defense,'' David S. C. Chu with John P. 
White, in Ashton B. Carter and John P. White, eds., Keeping the Edge: 
Managing Defense For the Future. Hollis, NH: Puritan Press, 2001.
---------------------------------------------------------------------------
    But before advancing potential changes, I would first inquire: What 
outcomes are desired? How are these different from the outcomes we 
enjoy today? Would changes to the statutory foundation for the officer 
corps produce those outcomes? Should these also apply to the enlisted 
force, whose management is less tightly constrained by statute? Are 
there potential unintended consequences for which we should prepare?
    As currently administered, DOPMA, and the analogous practices 
applied by policy to the enlisted force, create very effective 
leadership cadres for one of society's most respected institutions, the 
American military. It's an institution on which Americans depend to 
protect their society from attack, and to help advance their interests 
internationally. It's an institution to which they turn for support in 
domestic emergencies, as the National Guard so frequently provides. 
It's an institution whose virtues are widely celebrated as worthy of 
broader emulation.
    But DOPMA's also seen as overly restrictive, part of a ``one size 
fits all'' management paradigm. Coupled with the (just abandoned) 
cliff-vesting retirement system, the result is a set of military 
careers too much bunched between 20 and 30 years of service, especially 
for officers, regardless of whether the resulting experience mix is 
``optimal.'' As the need for technical skills increases, the Services 
may need some individuals with longer periods of service. Conversely, 
in some skill areas, shorter periods of service may be desirable--
perhaps because the demands of that service are particularly arduous.
    The technical nature of military capabilities is increasing 
steadily. That can be seen in the allocation of defense resources by 
major force program. Over the long trajectory since the end of the Cold 
War, force elements subsumed under ``Command, Control, Communications, 
Intelligence, and Space'' (Major Force Program 3) have grown markedly 
at the expense of others. \2\
---------------------------------------------------------------------------
    \2\ MFP 3 was the second largest major force program in fiscal year 
2017 at 15 percent of DOD Total Obligational Authority (including 
Overseas Contingency Operations), versus 9.7 percent in fiscal year 
1989. See Office of the Under Secretary of Defense (Comptroller). 
National Defense Budget Estimates for fiscal year 2018. Revised August 
2017, pp. 105-106.
---------------------------------------------------------------------------
    The DOPMA paradigm used to tailor the force is advancement through 
operational experience of increasing responsibility, especially 
command, with a requirement that one move up or out. That path nicely 
develops senior unit leaders, but it ignores the reality that only a 
few officers are going to be selected for such roles. That path 
inevitably creates a tension between the development of technical 
expertise and upward mobility. For most officer communities, it's 
really advancement that brings increased compensation. (In contrast, 
the enlisted force benefits from the wide use of bonuses as an 
instrument of compensation, in addition to the rewards from 
advancement.)
    For a select set of skills the Services have long recognized that 
tension, and relieved it by adopting separate systems for clinicians 
(especially doctors), for lawyers, and for the clergy. Those separate 
systems also facilitate lateral entry (i.e., recruiting at an advanced 
grade individuals who already have the skill needed). For doctors, the 
compensation issue is resolved via special pays and bonuses. For 
pilots, the Army recognizes that not every pilot should be a candidate 
for senior leadership, with a significant fraction of its pilot force 
recruited and retained using the warrant officer system, which 
facilitates long careers in the cockpit.
    As the treatment of the professions demonstrates, DOPMA does 
provide a mechanism for recognizing differences across skill areas, 
quite apart from the (largely underutilized) warrant officer 
provisions: creating separate competitive categories. The Navy also 
uses that authority for Supply Corps officers, among other skill areas, 
and the Army has recently adopted it for cyber (``Information 
Dominance''). But it's not as widely employed as it might be. Moreover, 
illustrating that the ``one size'' used for so much of the officer 
corps is driven by more than DOPMA, the Supply Corps experience profile 
is still importantly shaped by the (just-abandoned) retirement system.
    The limited use of existing DOPMA flexibilities (including 
selection out, and selection for retention in grade) underscores that 
the current ``one size'' is a key part of Service cultures. Those 
cultures have much to recommend--after all, they're part of the 
institutional success the country properly admires. Change will only 
succeed to the extent that the Services are comfortable in embracing 
new authorities the Congress might grant, and adopting a wider variety 
of cultural norms.
    If the forward challenge is recognizing that the experience mix of 
military personnel might usefully differ across skill communities, then 
inviting the Services to identify the communities that might benefit 
from a different experience mix (including experience gained in the 
civil sector) would be an obvious first step. For enlisted personnel 
(and perhaps warrants), it might be possible to achieve desired results 
with few if any statutory changes. But for officers it is likely to 
require separate statutory authority.
    In designing such authority, even the harshest critics, one hopes, 
would agree that we should emphasize performance as a condition of 
continued service. The current mechanism, ``up or out,'' effectively 
serves as the equivalent of ``perform to stay'' if selection rates are 
high (as they have been for officers recently through grade O4). But in 
other situations it could prune talent prematurely. \3\ DOPMA does 
permit convening boards for selective retention, but that provision 
tends to be used only when the Services need to reduce cohorts, which 
may damage its reputation as a general management tool. One of the most 
significant challenges in designing new authority is how to sustain a 
constructive emphasis on performance if ``up or out'' is ill-suited to 
the new career track being created.
---------------------------------------------------------------------------
    \3\ In ``up or out'' as practiced, one typically is allowed just 
two chances, bunched together at times of the institution's 
convenience. This can disadvantage individuals who have pursued non-
standard career paths--for example, unusual assignments, including 
graduate school.
---------------------------------------------------------------------------
    The new authority would also need to address the adequacy of 
compensation for the selected skill communities, both to recruit 
(especially for lateral entry), and to retain. A different compensation 
table could be considered (much as compensation for officers with prior 
enlisted service has differed). To the extent that lateral entry is an 
issue, a ``time in grade'' approach might substitute for the current 
``time in service'' (which could also assist if it's desired to cap 
grade progression). \4\ Bonus authority like that now used for enlisted 
management could be employed.
---------------------------------------------------------------------------
    \4\ A time in grade pay table could also help in those situations 
where you'd like to reward rapid advancement in grade more handsomely.
---------------------------------------------------------------------------
    If grade limits for the skill community are part of the structure, 
it would be best to start with the experience mix desired, then solve 
for the combination of grade, special pay, bonus, and retirement 
compensation necessary to produce what's needed. (Yes, retirement 
compensation could be adjusted as necessary, perhaps by larger payment 
to Thrift Savings Plan accounts.) If grade structure is limited by 
considerations of supervisory relationships, one could rely more on the 
other instruments to achieve desired results. The package would 
obviously differ if the desire is for a pyramid like that at which 
today's practice aims (large entry cohort, small numbers of highly 
experienced personnel), vice an inverted pyramid (mostly experienced 
personnel, e.g., as acquisition managers, perhaps recruited from the 
private sector), or a ``Michelin man'' (i.e., many mid-career members, 
but limited numbers of both junior and senior personnel), or a cylinder 
(equal cohorts across experience levels). Some of the more unusual 
profiles might benefit from the skillful use of Reserve appointments, 
including provisions to move seamlessly back and forth between Active 
and Reserve status (``continuum of service'').
    Two restrictions in today's DOPMA probably should not be part of 
such special authority: The requirement that an entering officer should 
be able to retire based on years of service, which effectively bars 
lateral entry beyond age 42; and the bar to more than 30 years of 
commissioned service if not selected for general officer or flag rank 
(assuming a ``perform to stay'' feature is included). The former unduly 
constrains lateral entry; the latter discourages benefitting from those 
with long experience.
    As argued earlier, the Services could try for ``non-standard'' 
enlisted experience profiles with existing statutory authority, which 
would create a way to identify some of the issues that might arise in 
the officer community, especially unintended consequences. Some of 
those consequences will involve how individuals react to new 
opportunities, perhaps in ways not now envisaged. Some will involve 
demands from sister communities that they enjoy similar benefit 
improvements (to the extent these are offered), even if they might not 
be needed so widely.
    That there could be adverse (as well as welcome) unintended 
consequences should not lead to curtailing the horizon for use of new 
authority. Put differently, a time-constrained pilot would not likely 
yield the desired results, because individuals will be reluctant to 
join an enterprise with a limited horizon. There's no need for a 
``sunset clause'': Amendments can provide necessary course corrections.
    As we look at the wide range of skills the American military needs, 
it is implausible that a single experience profile correctly describes 
what ensures success. What's best for line operational units is 
unlikely to create what's best for certain technical and functional 
communities. Can we break from ``one size fits all'' and tailor talent 
management paradigms to those differing needs, melding the best of the 
existing system with new approaches that will better sustain the 
continued excellence of American military forces?

    Senator Tillis. Thank you.
    Mr. Levine?

  STATEMENT OF HON. PETER K. LEVINE, SENIOR RESEARCH FELLOW, 
                 INSTITUTE FOR DEFENSE ANALYSES

    Mr. Levine. Thank you, Mr. Chairman, Ranking Member 
Gillibrand, Senator McCaskill, thank you for inviting me to 
participate in today's hearing, and it is an honor to be back 
in this room.
    With your permission, I will make just a few brief points.
    First, the ``up or out'' system at its heart is still very 
much needed. DOPMA has been rightly criticized for limiting the 
Department's access to needed talent and for pushing out highly 
trained officers with critical skills too soon. Even so, 
though, it continues to provide a highly competitive 
environment in which the officer corps is continually 
refreshed, routinely producing officers whose leadership 
qualities are the envy of the world.
    I had the privilege, while I was at the Department of 
Defense, of actually having general officers work for me, and I 
have to tell you having that kind of direct exposure to them on 
a day-to-day basis, you can only come away impressed.
    Our officer personnel management system is an incredibly 
valuable investment portfolio that we rely on to produce 
results not this year but over a 20 to 30-year period. So we 
may want to diversify that portfolio and bring in creative 
ideas at the edges with the kind of skilled occupations that we 
have been talking about, but we need to be really careful that 
we do not break the overall portfolio, that it continues to 
produce the kind of results we need so they can shape the force 
in 20 to 30 years. We cannot focus so much on the next 2 to 3 
years that we lose that long-term focus.
    Second, Mr. Chairman, I agree with you that we have to be 
very careful to avoid one-size-fits-all solutions in this area. 
What the Air Force needs may be very different from what the 
Marine Corps needs. What we need for the cyber workforce may be 
very different from what we need for the acquisition workforce. 
So I think it is important that you work with the military 
services and give them flexibility to do the kind of analysis 
that Dr. Chu is talking about and figure out what they need and 
address those needs rather than trying to impose a solution on 
them.
    Third, as Dr. Chu indicated, real change is going to 
require not just changes in laws and rules but changes in 
culture and incentives. That is going to take leadership from 
the top down within the service because whatever new 
flexibilities or new career paths you may offer, they are only 
going to be successful if young leaders are convinced that when 
they follow these new career paths, it is not going to come 
back and disadvantage them tomorrow. If these career paths are 
perceived as being potential dead ends--and I would 
particularly warn you about the idea of temporary pilot 
programs which will be perceived as potential dead ends--then 
they are not going to do us much good. People will not commit a 
career to something if they do not perceive that it is going to 
be there when they need it.
    Finally, I would urge you to keep in mind that our Active 
Duty military do not need to and will not have to meet all of 
our needs in areas like cyber, intelligence, acquisition, 
space, those kinds of specialty career fields. We have a mixed 
total force that consists of military, civilian, and 
contractors. Within the military area, we have both Active Duty 
and Reserve. They serve different purposes and we need to think 
about that and optimize the entire force rather than just 
assuming that we can optimize the officer corps in isolation 
and that that will address the problem.
    So with that, I would urge you to focus on increased 
flexibility rather than new requirements, to work closely with 
the Department, and to give direction to the Services but allow 
them to develop their own unique solutions for these problems.
    Thank you for allowing me to testify today, and I look 
forward to your questions.
    [The prepared statement of Mr. Levine follows:]

                   Prepared Statement by Peter Levine
    Chairman Tillis, Ranking Member Gillibrand, members of the 
subcommittee, thank you for inviting me here this afternoon to address 
the issue of officer personnel management in the Department of Defense. 
I was privileged to serve on the staff of this committee for 18 years, 
and I place a tremendous value on the work that you do to support our 
men and women in uniform and their families. The views I express today 
are my own, and should not be interpreted as reflecting the position of 
the Institute for Defense Analyses.
    Mr. Chairman, as the subcommittee undertakes the important task of 
reexamining and improving our approach to officer career management, I 
would suggest that you take into account a few basic principles.
    First, as you undertake to reform the system, it is important to 
understand not only what is broken, but also what is not broken. The 
Defense Officer Personnel Management Act (DOPMA) has been criticized 
for being out of step with the demographics of today's force and the 
realities of the 21st Century job market, for pushing highly-trained 
officers with critical skills into premature retirement, and for 
limiting the Department's access to talent that will be needed to 
respond to emerging threats. Respected experts have advocated 
eliminating the ``up-or-out'' policy, scrapping mandatory promotion 
timelines and mandatory retirement dates, and even applying market-
based solutions to officer assignments and career advancement.
    While the diagnosis has much truth in it, some of the prescriptions 
would be worse than the disease. Even more than technology, our 
greatest advantage over our near competitors is our people: our 
military is filled with countless highly-trained professionals, 
including officers whose leadership qualities are the envy of the 
world. The up-or-out system plays an important role in the development 
of those officers by ensuring that the officer corps is continually 
refreshed, and by providing a highly-competitive environment in which 
it is possible to provide responsibility to developing leaders at an 
early age. The objective of officer personnel reform should be to add 
needed flexibility to a working system, not to tear that system down.
    Second, our military professionals can't fix the system without 
your help, but Congress can't fix it without their help either. Real 
change will be possible only with changes in culture and incentives 
that are unlikely to take place without the ownership and commitment of 
our military leadership at all levels. Some may tell you that the 
military leadership will resist change of any kind. I disagree. I had 
the honor of serving with two of the officers on your next panel, and 
with the immediate predecessors of the other two. I can assure you that 
not only are they exceptionally well-qualified officers and leaders, 
but they understand the issues that we are discussing today as well as 
any of us.
    Third, as you look for ways to build new flexibility into the 
system, beware of one-size-fits-all solutions. Each of the Services has 
different personnel needs, and unique career fields are likely to 
require creative solutions that would not be appropriately applied to 
the entire force. Certainly, today's military must adapt to a world in 
which cyber, space, artificial intelligence, and other technologies 
provide new opportunities and new vulnerabilities. But more traditional 
combat arms specialties are no less needed today than they were 40 
years ago. As important as creativity and innovation may have become in 
today's warfighting environment, hierarchy, order, rules, and 
discipline remain essential as well.
    With these cautions in mind, I would urge you to focus your efforts 
on improvements in specialty career fields where the existing officer 
personnel management system has come up short. Let me give two 
examples:

    <bullet>  In the cyber arena, one of our biggest problems has been 
access to young people with technical skills who do not fit into the 
traditional military mold or career patterns. We may need cyber skills 
too much to give up on individuals who have past drug issues, can't 
meet military weight standards, or are unwilling to sign up to military 
discipline for an entire career. To address this problem, the 
Department may want to consider a variety of tailored options, 
including expanded lateral entry and constructive service credit, 
selected waiver of accession standards, and increased reliance on 
civilians (possibly with Reserve commissions) in lieu of Active Duty 
servicemembers.

    <bullet>  In the acquisition arena, one of our biggest problems has 
been building and retaining expertise that may take a career to 
develop. Today, we take years to train and develop officers with skills 
in critical areas like system engineering, cost estimating, and program 
management--only to push these officers into early retirement and allow 
their expertise to be snatched up by contractors. To address this 
problem, the Department may want to consider options to build skills 
faster and keep them longer, including extended tours of duty, career 
patterns that strive for depth of experience instead of rotational 
breadth, and waiver of mandatory retirement dates to enable officers 
with needed expertise to serve longer (with appropriate compensation).

    As these examples show, specialty fields within the Department have 
different needs that require different approaches. What we should not 
do is change the career progression model for everybody to meet the 
needs of these unique communities.
    If the committee decides to consider across-the-board changes 
affecting all categories of officers, I would recommend modest steps to 
build more flexibility into DOPMA without undermining the basic 
principle of up-or-out. Again, let me give two examples:

    <bullet>  First, the layering of Goldwater-Nichols joint duty 
requirements on top of DOPMA timelines has pressurized military 
careers, encouraging rapid rotation through ticket-punching rotations. 
These tight timelines have discouraged some talented officers from 
seeking career broadening and deepening experiences--such as 
interagency assignments, industry rotations, and pursuit of advanced 
degrees--which might make them better leaders, but would not enhance 
their chances of promotion. Congress has adjusted some Goldwater-
Nichols requirements in recent years, but more flexibility would be 
helpful to allow innovative future leaders to grow and thrive.

    <bullet>  Second, today's military force is predominantly a married 
force, and a force in which military spouses increasingly expect to 
have careers of their own.

    Some of our most talented officers may be driven out of the force 
by career path constraints which leave them insufficient time and space 
to build their families, or by rotation requirements that separate them 
from their spouses too frequently or for too long. Congress has 
established a pilot career intermission program to relieve some of this 
pressure, but more flexibility would still be helpful to ensure that we 
don't lose some of our best young officers because we are unable to 
accommodate their family needs.
    If you choose to do so, you could help the military services adjust 
to these pressures by making the career intermission program permanent, 
allowing the use of paid and unpaid sabbaticals, and permitting 
officers to temporarily opt out of the promotion cycle. Any or all of 
these approaches would build new flexibility into career patterns, 
allowing officers to expand their horizons without abandoning their 
military careers--and without undermining the fundamental underpinnings 
of the up-or-out policy which remain as valid today as they were when 
DOPMA was enacted. While no change in DOPMA can be expected to solve 
the problems of a married force, the same flexibilities could also help 
relieve some of the stresses caused when urgent family needs confront 
immutable career requirements. Based on my past experience at the 
Department, I believe that these proposals would be welcomed by our 
military leadership.
    As you consider these proposals, you may be tempted to consider 
pilot programs that run for only a limited period of time. I urge you 
to think carefully before taking that approach. Our service chiefs told 
me a year ago that many young servicemembers are reluctant to take 
advantage of the career intermission program, because they suspect that 
future promotion boards will be skeptical of a decision to participate 
in a temporary, pilot program that leads to significant deviation from 
the career paths of their peers. The promise of a new career path that 
may disappear after 5 or 10 years is not likely to give much assurance 
to young servicemembers faced with making decisions that they will have 
to live with for a 20- or 30-year career.
    My old boss, Secretary of Defense Ash Carter, proposed legislation 
addressing a number of these issues in 2016. His legislative package 
would have made the career intermission program permanent, permitted 
adjustments to lineal promotion numbers, expanded lateral entry 
authority, allowed servicemembers to temporarily opt out of the 
promotion cycle, and authorized the Services to waive certain DOPMA 
requirements to provide greater career flexibility in specialty fields. 
As Secretary Carter said in proposing these changes:

        ``Up-or-out'' isn't broken--in fact, it's an essential and 
        highly successful system--but it's also not perfect. Most of 
        the time, and for most of our people, it works well. The 
        problem, however, is that DOD can't take a one-size-fits-all 
        approach . . . [We need new flexibilities] to enable the 
        services to respond to an uncertain future, in ways that can be 
        tailored to their unique capability requirements and particular 
        personnel needs, without casting off a system that still 
        largely meets our needs for most officers across the force.

    Some of Secretary Carter's legislative proposals came too late in 
the legislative cycle to be considered. Others were included in the 
Senate bill, but rejected by the House in conference. Although I had a 
hand in drafting these proposals, I would be the last to argue that 
they are the only path forward or that the subcommittee cannot come up 
with a better approach. However, the rationale underlying these 
proposals--that we need to build more flexibility into DOPMA without 
abandoning its underlying structure and intent--remains as valid today 
as it was when Secretary Carter proposed them.
    In conclusion, I would urge the subcommittee to focus on providing 
increased flexibility rather than new requirements, to give direction 
but allow the Services to develop their own unique approaches to 
problems in specific career fields, and to work with the Department's 
talented personnel leaders in developing these solutions. I thank you 
for taking on the reform of the officer personnel management system, 
and for inviting me to participate in your review. I look forward to 
your questions.

    Senator Tillis. Thank you.
    Dr. Kane?

  STATEMENT OF DR. TIMOTHY KANE, FELLOW, HOOVER INSTITUTION, 
                      STANFORD UNIVERSITY

    Dr. Kane. Thank you, sir. Chairman Tillis, Ranking Member 
Gillibrand, Senator McCaskill, thank you for this opportunity. 
What I will say today--these are my own views not those of the 
Hoover Institution or Stanford University.
    Thank you for working together. I think this is a moment to 
work on a nonpartisan issue that may be rare. It may not happen 
again for 20 years. So I am excited to see significant change 
not pilot projects come out of the committee and this 
committee, in particular the subcommittee, can show how 
democracy works especially for the volunteers. So I am really 
enthusiastic about what you have endeavored and just holding 
this hearing.
    My colleague and former Secretary of State, George Shultz, 
recently wrote, ``Over 40 years ago, Milton Friedman and his 
friend, Martin Anderson, put forward the idea of ending the 
draft and recruiting volunteers for the Armed Forces.'' At the 
time the bulk of flag officers thought that was a terrible 
idea. Now the bulk of flag officers would say this is 
brilliant. We do not want to go backwards. We want to go 
forward. I have been really encouraged in the talks I have had 
over the last 5 years and worked on two books on this issue to 
see the Navy in particular. They realize they need more 
flexibility than DOPMA is getting them. I hear that from other 
officers in other Services, but I think the Navy is ready to 
strike now on the issue because they want to be more efficient 
and better and stronger. We need this fix to DOPMA to enhance 
our security.
    So Mr. Shultz did not say all that. Mr. Shultz then said, 
``Since the draft ended in 1973, the concept can now be said, 
unequivocally, to have succeeded.''
    Yet, despite the world-class culture of the U.S. military, 
the bureaucracy still treats troops like interchangeable 
draftees. It is not only disrespectful but also short-sighted. 
This cannot be fixed until DOPMA is fixed.
    Now, my research and the research of others, I think all 
three of us at this table, has looked into the quality of the 
people who are volunteering, the men and women. It is fabulous. 
The literacy rates are above the civilian norms. Physical, 
moral, mental fitness is above average. Our enlistees and our 
officers are fantastic, but how they get treated is not so 
fantastic, and that is why we have repeated retention crises.
    Now, 3 years ago, I conducted a survey as part of this 
book, ``Total Volunteer Force,'' of 360 Active Duty officers, 
NCOs [non-commissioned officers], and veterans to identify 
their thoughts on the Pentagon management system. The 
respondents gave high marks to the U.S. military's leadership 
culture but low marks to talent management, as shown in figure 
1 of the written testimony. Across the board, they saw 
promotion and job matching practices as the most troublesome 
and the weakest. Promotion--that is encoded into DOPMA about 
how these things have to happen. This idea of ``up or out'' 
that we say is the culture, but it is not. It is coded into the 
law.
    So because of DOPMA, commanders cannot hire. They cannot 
flexibly adjust their people, and they are actually left with 
empty billets when they are removing an abusive coworker. So 
they get essentially punished for trying to get their teams to 
work better.
    Furthermore, promotions are completely lockstep based on 
seniority not merit, and promotion boards are completely 
centralized and dehumanized. I am using strong language because 
I think we assume the troops, the officers, work so hard in 
these promotion boards and they are fair and they are this and 
they are that. They might be all those things, but they are 
inefficient and we can build something that is a lot better by 
maybe mandating some flexibility. That might sound funny. Get 
commanders involved in the process.
    Now, one of the side effects that concerns me of the law as 
it is written is that the sexual predators can hide in plain 
sight in the ranks. Sexual assault in the ranks occurs at 10 
times the rate in the civilian sector. When you are rotating 
people constantly and you are rotating commanders constantly, 
unless someone is a proven criminal, you cannot weed them out. 
There is no informal information so that when commanders hire, 
they are just given a person. They are not allowed to do a 
background check or a reference check. I think you need to get 
commanders involved in the hiring process regardless of what 
you do on the UCMJ [Uniform Code of Military Justice] side of 
it because we are talking about people who are predators and 
they are not yet proven criminals and they are still lurking 
heavily. Now, most men and women in the ranks are not 
predators, but this system allows them to hide in plain sight, 
as I would say.
    Key reforms that I would encourage the Senate to make. I 
will just list four and then end.
    Let us kill the ``up or out'' principle that is coded into 
law. I do not think it is helpful. It is not how the military 
had its history pre-1945. The historical military principle for 
most of our history has been ``excellence or out,'' but we do 
not do that anymore. It really does not matter how excellent or 
un-excellent you are. You are pretty much guaranteed promotion 
pretty much all the way to 20 years. So we are not really 
forcing people out. There is a big bubble of officers between 
12 and 20 years, and then suddenly they drop off. Some of this 
ties into compensation, but I think we should be forcing 
excellence and force people to require to recompete to stay in 
their jobs if they want to specialize.
    Two, end the mandatory use of year groups after 10 years, 
and end forced retirement for non-promotion after 10 years.
    Number three, restore balance to command authority. Let us 
give local commanders a voice in hiring so they can do informal 
reference checks.
    Then four, allow innovation and flexibility by the 
Services. You know, they may not use this flexibility, but 
right now they just do not have it.
    I will end on that and thank you again for this wonderful 
opportunity.
    [The prepared statement of Dr. Kane follows:]

                   Prepared Statement by Dr. Tim Kane
    Chairman Tillis, Ranking Member Gillibrand, and members of the 
committee, thank you for this opportunity. Thank you for working 
together on a truly non-partisan issue and showing the country what 
real leadership and teamwork looks like.
    My colleague and President Reagan's Secretary of State George 
Shultz recently wrote, ``Over forty years ago, Milton Friedman and his 
friend Martin Anderson put forward the idea of ending the draft and 
recruiting volunteers for the Armed Forces. Since the draft ended in 
1973, the concept of the volunteer Armed Forces can now be said, 
unequivocally, to have succeeded.'' Yet, as Secretary Shultz noted, 
despite the heroic volunteers who have vindicated this concept during 
the past decade and a half of war, and despite the world-class 
leadership culture of the U.S. military, the nuts-and-bolts personnel 
bureaucracy still treats the troops like interchangeable muscle 
widgets, like conscripts, like draftees. It is not only disrespectful, 
and wrong, and short-sighted this idea of ``the needs of the military 
come first'' but is inefficient. The Pentagon has a talent problem, and 
it cannot fix that problem until Congress changes the archaic law known 
as DOPMA, which is short for the Defense Officer Personnel Management 
Act of 1980.
                  the problem with military management
    The success or failure of any organization hinges on the quality of 
its people. This is true of every small business in America, true of 
the Air Force, and true of the Congress. But no organization in America 
except one employs over one million employees and rotates everyone 
every 18 months using a centralized process with no input from local 
commanders and no control by individuals. That would be the Pentagon.
    Three years ago, I conducted a survey of 360 Active Duty officers 
and NCOs and veterans in order to identify what they think the 
strengths and weaknesses of the Pentagon management system are. The 
name of the instrument developed for this broad-spectrum analysis is 
the Leader/Talent matrix. The matrix includes 40 elements spread across 
5 leadership categories and 5 management categories. One of the 
elements, for example, is the statement ``Abusive bosses are not 
tolerated and are removed''. Each element is rated on a scale from +2 
(always true) to -2 (always false). Categories in the cultural 
dimension are independence, development, purpose, values, and 
adaptability, which contrast with talent management categories such as 
training, job-matching, promotions, compensation, and evaluations.
    Respondents gave high marks to the U.S. military's leadership 
culture but low marks to talent management, shown in Figure 1. Across 
the board, respondents see promotion and job-matching practices in the 
most negative light.
    In a critical 2010 report, the Defense Science Board highlighted 
DOPMA's inflexibility and blamed it for ``wasting human capital.'' A 
Rand study in 2006 claimed unequivocally that DOPMA-based practices 
``will not meet the needs of the future operating environment'' and 
called it a ``Cold War-era personnel system'' that was outdated.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

         figure 1.--leadership and talent in the u.s. military.
      
    Because of DOPMA, local commanders have been stripped of their 
personnel authority. Commanders cannot hire, cannot flexibly adjust 
their people, and in fact are left with empty billets for up to a year 
when removing an abusive co-worker. Furthermore, promotions are 
completely lock-step based on seniority not merit, and promotion boards 
are completely centralized and dehumanized. The consequences are dire 
and, I believe, costs lives and can lose wars. One of the side-effects 
of the constant rotations and short job cycles and lack of command 
authority is that sexual predators can hide in plain sight. There is a 
crisis of sexual assault in the ranks which occurs at 10 times the rate 
of comparable civilians or on campuses. This is the system that the 
DOPMA law mandates.
                   key reforms the senate should make
    1.  Kill the ``up-or-out'' rule, and the ``up-or-out'' culture, 
which is completely broken. Essentially no one is forced out after 10 
years on Active Duty, but the rule has nurtured perverse incentives. 
The key to fixing DOPMA is to replace that rule with one that works to 
enhance talent, retention, and lethality: Excellence-or-out. Allow 
Services to institute recurring competition for military jobs so that 
poor performers cannot stay indefinitely.
    2.  End mandatory use of year groups after 10 years, and end forced 
retirement after non-promotion.
    3.  Restore balance to command authority. Decentralize promotions 
and assignments. Give local commanders a voice in hiring so they can do 
informal reference checks on three candidates for each open billet.
    4.  Allow innovation and flexibility by Services. Allow Services to 
waive DOPMA mandates for specific career specialties (e.g. 
intelligence, cyber). In other words, don't require the Navy to look 
like the Army. Please, with all due admiration for my former colleague 
Secretary of Defense Jim Mattis, don't make airmen look like marines!
                           dopma: background
    Many of the legal constraints governing military personnel were 
instituted following the passage of the Defense Officer Personnel 
Management Act (DOPMA) in 1980. In concert, its reforms standardized 
careers across the Services and had the effect of institutionalizing a 
relatively short ``full'' career of 20 years.
                  the roots of personnel inefficiency
    For most of its history, the United States military was haunted by 
seniority. Perhaps the most extreme example came after the Civil War 
when a large cohort of naval officers held onto senior and even middle 
ranks--refusing to retire--causing a severe shortage of promotion 
opportunities for younger officers. Top graduates of the Naval 
Academy's class of 1868 remained lieutenants for 21 years.
    The Army and Navy attacked this problem in different ways, first 
with a paid retirement for Army officers who reached 30 years of 
service, enacted by Congress in 1870, and later the Navy's mandatory 
``plucking'' (forced retirement) in the 1880s. In the Army, mandatory 
non-disability retirement could not be imposed on officers under the 
age of 64. Despite these new retirement programs, there were no changes 
to seniority as the dominant factor in promotions until 1916, when the 
Navy adopted ``promotion by selection'' of impartial central boards. 
The use of selection as a policy was denounced as ``scoundrelism'' by 
many officers, reflecting a timeless concern about subjective bias and 
nepotism.
    When Congress passed the Officer Personnel Act of 1947 (OPA), it 
formalized the battlefield flexibility of assigning and promoting 
officers based on the judgment of commanders rather than garrison 
seniority. That act formally gave the Army and newly created Air Force 
the power to promote by selection, although the selections were limited 
to cohorts of officers of the same age. The flip side of selection-
based promotion was the mandatory retirement of officers non-selected 
for promotion.
    This was the ``up-or-out'' system pioneered by the Navy and 
extended to the Marine Corps by an act of Congress of 1925. The 
principle was limited to senior officers who failed to make flag rank, 
but it has crept down the ranks over the decades. In the aftermath of 
World War II, General Dwight Eisenhower testified before Congress, 
saying that lockstep promotions until the grade of general officer were 
a serious problem.
    Unfortunately, the up-or-out remedy of 1947 became a uniform 
straitjacket across all of the Services in 1980. The enshrinement of a 
strict promotion timetable in the Defense Officer Personnel Management 
Act (DOPMA) of 1980 pushes all officers on Active Duty through the same 
career track and pressures nearly all to retire at their moment of peak 
productivity.
    Other laws have further reformed military personnel practices. In 
response to changes in manpower patterns in the military, Congress 
passed another law 7 years later: the Officer Grade Limitation Act of 
1954 (OGLA). OGLA established grade tables for the Armed Forces, which 
limited the percentage of officers who could serve in the rank of major 
and above.
    The Selective Service program, which administers conscription in 
the United States, was established in 1940, disbanded in 1947, then 
reestablished with the Selective Service Act of 1948. All men are 
required to register for the draft, or justify an exemption from it, at 
the age of 18. The draft was activated during World War II (1941 to 
1945), the Korean War (1950 to 1953), and many years of the Vietnam War 
(1963 to 1973). President Nixon approved the use of a draft lottery for 
the first time in December 1969. In 1971, Nixon essentially ended the 
draft by asking for a 2 year extension of the expiring law's authority, 
so that the last American was drafted in 1973. Many service chiefs 
resisted the adoption of an All-Volunteer Force, but it was implemented 
and became a success after 1973. Two years later, President Gerald Ford 
took executive action terminating draft registration as well, but his 
successor, President Jimmy Carter, brought back Selective Service in 
1980. It remains in force today.
    The Goldwater-Nichols Act of 1986 was the last major piece of 
legislation to reform military personnel practices. The act shook up 
the operational command chain, taking the service chiefs out of the 
direct operational command. Its primary effect on personnel was a 
requirement that officers could not be promoted to senior ranks without 
a minimum of one joint duty assignment (e.g., an Army major serving in 
a job that involves coordination with Navy, Air Force, and/or Marine 
units) of 2 to 3 years in length. The requirement is strict, but 
bureaucratic definitions of what assignments count often matter more 
than actual interservice experience.
                        specific recommendations
    In my book, Total Volunteer Force, I offered 20 recommendations to 
shift from a centralized personnel system to a modern talent management 
organization. The following are aimed directly at fixing DOPMA.
1. Restore Service Chief Authority over Promotion Timetables
    DOPMA's ``up-or-out'' principle is so rigid that every branch of 
the Armed Forces promotes officers on the exact same timeline for the 
first 10 or more years of service, and roughly the same for the second 
decade. Promotion up to the rank of O-3 is largely automatic. Indeed, 
the promotion timelines are so rigid that the career trajectory of most 
officers looks identical to most outsiders. More specifically, the law 
allows service secretaries to extend but not reduce time in grade 
requirements for ranks O-3 and above. It does this in order to make 
sure that officers get at least two opportunities for promotion board 
consideration. This law should be revised to allow service flexibility 
so that the Chief of Staff of the Army, Commandant of the Marine Corps, 
Chief of Naval Operations, and Chief of Staff of the Air Force can 
establish promotion rules that are best for their men and women. Even 
if the Army prefers to maintain the rigid timeline, the Navy (for 
example) would be allowed to loosen its up-or-out timeline, while the 
Air Force would be able to end the use of year-group promotion zones 
entirely. In general, promotion zones hinder the optimization of job 
matching and specialization.
    Furthermore, if mandatory timelines remain in place, then other 
reforms will be impeded. However, one mandate should not replace 
another: each service should be allowed the flexibility to continue 
using strict cohort promotion zones. If Congress does not amend DOPMA's 
mandatory up-or out timelines, it should at a minimum loosen the 
rigidity of the promotion zones by offering service chiefs flexibility 
on the issue. Each service should have expansive authority to use 
below-the-zone promotions for up to 40 percent of its officers in each 
cohort (double the current range).
                   background of promotion timetables
    In most organizations, an individual who is hired to fill a job is 
simultaneously promoted to the rank affiliated with the job. Because 
the military long ago cleaved the two, the complexity of conducting 
promotions followed by assignments has few outside comparisons. Getting 
a promotion does not mean you are getting a new job, and vice versa. 
Rarely does an officer's change in rank coincide with a new role. 
Indeed, pinning on a higher rank usually occurs while in one's current 
job. The carefully orchestrated three-phase process is meant to 
maximize a theoretical fairness among all officers during every step 
while maximizing the needs of the military. Promotions occur first. 
Screening for job types (including command roles) comes second. Job-
matching comes third. In retrospect, the actual ``promotion'' in rank 
really serves as a necessary qualifying step for future roles. It is 
hugely inefficient.
2. Restore Command Authority for Hiring
    Any commander at the rank of O-5 and above should be given final 
authority on who serves in his or her unit. Personnel centers/commands 
will provide a slate of no fewer than three candidates for the unit to 
interview and choose for key roles. Commanders should have limited 
authority to directly hire, whereas most hires will be through the 
centrally provided slate of candidates. Many key developmental roles 
should still be directly assigned centrally--meaning that a single 
candidate shall be recommended by personnel centers in many instances 
(e.g., honoring follow-on assignment commitments)--but the unit 
commander should retain the right to veto a limited number of such 
assignments.
3. Excellence-or-Out
    Services should be given more flexibility over rank tenure. For 
example, a Service should be able to allow any servicemember the option 
to stay at any rank for the remainder of his or her career. This reform 
would go beyond ending rigid promotion timelines and would, in fact, 
allow an open-ended timeline and longer careers of 40 years or longer 
instead of the current 30 year cap. The only standards for continuation 
of service should be competence, performance, and the support of the 
command chain. To avoid the pre-1941 problem of excessive seniority, 
all servicemembers would have to continually re-apply and be rehired 
into any billet on a biannual basis.
4. Expand Information Transparency for Job-Matching
    Centralized personnel processes in place constrain information to 
an extreme degree so that gaining commanders know very little about 
incoming personnel, and even promotion boards are permitted to see only 
a fraction of the information available. The current standard is for 
gaining commanders to be given access to job histories (officer record 
briefs in the Army), but not performance evaluations or other 
background. Each Service should allow greater transparency and record 
preservation so that gaining commanders at all levels (division/
brigade/battalion) see all possible information on individuals who are 
inbound or applying to their units. Commanders should be allowed to 
request additional information to include LinkedIn profiles, letters of 
recommendation, and communications with references. Likewise, command 
selection and promotion boards should have broader authority to see 
this information as well.
5. Grant Cyber/Acquisition Workforce Exemptions
    The cyber domain has emerged as one of the top threat and battle 
spaces that conventional military forces were neither aware of nor 
prepared for a decade ago. Cyber skills are in sudden demand and, like 
acquisition skills, are ill-served by conventional military personnel 
rules. United States Cyber Command, currently headquartered at Fort 
Meade, Maryland, should be granted exemption from the DOPMA 
standardized ``competitive category'' career structure as a unique and 
critical workforce. The same exemption should be granted to Active Duty 
personnel in the acquisition workforce. Exemptions would free members 
from promotion timetables, tenure requirements, and compensation 
limits.
6. Allow Veterans and Reservists to Apply for Active Duty Roles
    Allow veterans and reservists to apply for open billets at any rank 
below general/admiral (O-7). The current lack of permeability 
eliminates from military jobs millions of fully qualified citizens who 
have already served honorably on Active Duty. If any veteran or 
reservist is physically and occupationally qualified, he or she should 
be part of the talent pool that the Services can access. This would 
permit lateral reentry limited to honorably discharged veterans, not 
lateral entry of civilians with no military experience. While reentry 
of a few individuals occurs under current laws, they are rare 
exceptions to the rule.
7. Allow Flexible Sabbaticals
    Another kind of permeability can be achieved by allowing Active 
Duty troops to take unpaid sabbaticals. A range of sabbatical options 
should be available to include (1) nascent programs that contract the 
individual to return to active status after a set period but also (2) 
open programs that offer individuals a right of reentry to active 
status within a set period of time that also amends their year group. 
Current sabbatical programs tend to be inflexible, and should instead 
offer maximum control to individuals to have a choice over occupational 
and geographic preferences, rather than forcing them to pre-commit to 
return with uncertainty about those factors.
8. End Selective Service (Registration for Draft)
    Eighty-six percent of Active Duty troops are opposed to manning the 
force with conscription. Draft registration became irrelevant in 1973 
when the All-Volunteer Force was enacted, but was maintained in case 
the AVF failed. President Gerald Ford terminated the program in 1975, 
but President Carter re-established it in response to Soviet 
aggression. The Cold War is over, yet the AVF proved doubters wrong by 
successfully manning a high-quality force during the past decade of 
war. It is long past time to recognize the draft is an outdated 
concept, particularly in light of comprehensive reliance on high-skill 
human capital in the modern professional military. First enacted in 
1917, Selective Service should be terminated on its hundredth 
anniversary, saving taxpayers $24.4 million a year and registrants 
millions of hours of wasted time and other resources. The prospect of a 
future national emergency that requires conscription should not be 
ruled out, however, so an emergency infrastructure should be 
maintained. The Department of Defense should retain a draft 
reinstatement plan for national emergencies, which would provide for a 
draft to be implemented if ever necessary.
9. Conduct Regular Personnel Policy Assessments
    The DOD should conduct a regular, transparent assessment of 
leadership culture and talent management in the Armed Forces. The goal 
is to assess organizational features, not personal or unit comparisons. 
Chapter 1 presents an initial methodology--the Leader/Talent matrix--
that serves as a prototype for such an assessment. Systematic reviews 
of personnel practices should be conducted every 4 years, alternating 
between the Quadrennial Defense Reviews (QDRs). Service chiefs should 
institute a similar assessment of leadership and management practices 
in the form of exit surveys of servicemembers upon discharge. The exit 
survey should include hard hitting questions that evaluate strengths 
and weaknesses quantitatively, rather than open-ended questions.
                               conclusion
    The issues created by DOPMA have become increasingly harmful to the 
talent pool in the military. We have a volunteer force of 1.3 million 
heroic men and women, yet the law treats them like conscripts after day 
one. The service chiefs and battlefield commanders have less authority 
than business executives to shape their teams, but what's even more 
important is that they have less authority in the Navy of 2018 than 
admirals had in the Navy of 1944. All four branches are clones of the 
same personnel hierarchy set in concrete during the early Cold War. 
It's a new century with extraordinarily talented troops. They deserve 
better. Excellence-or-out will be better than the archaic and failed 
up-or-out dogma. This Congress can create in the summer of 2018 a more 
respectful, ready, and accountable military talent management law to 
keep America secure. Thank you.

    Senator Tillis. Thank you.
    Senator Gillibrand will be back. She had a commitment that 
she had to go to.
    Mr. Levine, I want to start with you. In your written 
testimony, there were two things that I think are good, quotes 
that I may never attribute to you because they are so good, but 
I am going to use them again.
    One, because I think it sets the tone of what I think we 
are trying to accomplish here. You say that before you 
undertake reform, it is important to understand not only what 
is broken but what is not broken. We have talked about some of 
the things that we should look at and possibly change, but let 
us talk about some of the things that you think are 
foundational and very important to keep in place.
    Mr. Levine. Well, this is where I would disagree with my 
colleague, Dr. Kane. I believe that the ``up or out'' system 
needs to be kept in place, that because we need to shape a 
workforce over 20 to 30 years, we cannot rely on individual 
decisions and we cannot rely on military leaders to structure 
their own teams in a free form way. We want to be responsive to 
the civilian job market and we want to recognize the realities 
of the civilian job market. But we are not in a position where 
we are just hiring for the next 2 to 3 years, and we can allow 
our whole officer corps to turn over and get a new one if that 
does not work. We have to plan far in advance, and I think that 
the ``up or out'' system is a way of continually refreshing. So 
I think the subcommittee ought to be open to different periods 
of time, different tour lengths. All kinds of different 
flexibility within DOPMA are open to consideration, but I think 
the ``up or out'' system itself not only works but performs a 
vital function for our military today.
    Senator Tillis. So, Dr. Chu, you get to break the tie.
    [Laughter.]
    Senator Tillis. What are your thoughts?
    Dr. Chu. I would put myself someplace in between.
    [Laughter.]
    Dr. Chu. Split the difference. Here is the reason.
    I think it is very important, as Mr. Levine has said, that 
they have some mechanism to judge is the individual continuing 
to develop, is he or she continuing to perform at high levels, 
as Dr. Kane said. ``Up or out'' is one mechanism.
    The problem is it is very rigid at the moment. You come 
into a window. You have got just two chances. If you have had 
an unusual career so that you did not do the normal things, you 
might be severely disadvantaged by that. Admiral Crowe is an 
example of that career path. Most people were amazed he ever 
made flag. Once he made flag, the rest of the system took over 
and he eventually, as we all know, became chairman of the Joint 
Chiefs of Staff never having commanded a ship at the ship 
level. He was XO [executive officer] over a submarine.
    So we can do things differently, but the present system 
does not allow much leeway for that. I think in terms of 
relaxation, giving the service secretaries some degree of 
latitude to change the rules, whether that is to encourage them 
to use more selected pay and grade, which the authorities 
already do under the existing rules, whether it is allowing 
them to put people in different year groups as different 
careers might suggest so they do not compete against someone 
who has done all the normal things when they went off to do, 
let us say, a period of deeper education in a technical area 
that is needed. So some leeway for the service secretary, more 
waiver authority perhaps I think would be very helpful.
    Senator Tillis. The other thing we talked about is we need 
to stay away--I think there is generally a consensus that there 
should not be a one-size-fits-all, and we also talked about 
taking into consideration how we seek input from the different 
service lines about maybe areas that we should look. For 
example, I think there is a universal or kind of a horizontal 
focus on cyber because that seems to be something that although 
you may have different practices on a day-to-day basis, that is 
a category where we are really behind and we need to work. It 
seems to be one area that we could possibly focus on as a part 
of anything that we may move forward with in the markup.
    But then there is the position--that they be unique to the 
line of service. Now, we talked about acquisition. You could 
also argue, on the one hand, it is horizontal. There may be 
unique needs based on the line of service.
    But you all said something that I think is interesting. On 
the one hand, Dr. Chu, I think you said something about pilots 
and you guys said do not do pilots. I think what you are 
talking about is start small and work on things that have a 
greater potential for being operationalized versus a test and a 
good idea that goes away, maybe does not get authorized. That 
would not be particularly appealing for somebody that is 
building a portfolio of experience in their career. Is that an 
appropriate way to interpret what you said?
    Dr. Kane. If I can speak on that, sir, yes. Sometimes 
pilots get a bad name if they do not work out. So as an 
example, there is a problem with retention of female officers 
and enlisted. So there have been efforts to do sabbaticals. But 
I see those sabbaticals, and they do not look flexible to me. I 
talked to a young woman, enlisted, got into Stanford Business 
School. She thought about leaving as a sabbatical program, but 
there was not control for her, that when she got done with her 
MBA [Master of Business Administration], she could choose 
whether to come back in or not. She could choose her career 
field. It was all, oh, no, when you are done, if you are under 
the sabbatical program, we will tell you where to go. To me 
that is very disrespectful, and that is not flexibility. But 
the military can then interpret that and say, you know, we 
tried that flexible lateral entry idea or lateral reentry in 
this case, it does not work because these women are not taking 
up the program because it is not really flexibility. So that is 
my sense of caution.
    Now, the type of a pilot project that could work is to say 
take a career field and do not force that career field to use 
the pyramid. Allow long-term specialization, say, within cyber 
or intelligence and maybe not in all the other competitive 
categories. I think that would be a brilliant, wise type of 
pilot project, but I would just caution against some of these.
    Senator Tillis. Senator Warren?
    Senator Warren. Thank you, Mr. Chairman. I apologize. We 
are covering multiple hearings this afternoon. So we are 
dashing in and out.
    We are here to talk about how our military officers are 
recruited, retained, promoted, assigned. Our officer corps is 
the best in the world. We must have been doing something right. 
But I think about how things are changing over time. I think 
about two ways they are changing.
    DOPMA is this one-size-fits-all system. Everyone has been 
talking about that part. Today a lot of young officers require 
a different kind of talent management. At the same time, the 
demands of modern warfare are driving changes in the types of 
officers that we need in order to lead in the future. We demand 
a force that is highly adaptive, that is technically skilled in 
advanced technologies. You know, these are not skill sets that 
Congress had in mind when DOPMA was originally put together. So 
I worry that the Pentagon is just not set up either to be able 
to help guide careers or to be able to attract people, the 
people we need in our changing world.
    So here is the question I want to ask. I want to ask the 
one wish question. If you could make just one, because this is 
what forces you to have to make hard choices--one change to 
DOPMA in order to try to solve this part of the problem, the 
officer management of career and attracting the right people 
in--if you could make one change, what change would you make? 
We can start any place you want to start. Dr. Chu, do you want 
to start?
    Dr. Chu. Actually the one change I would make is not DOPMA-
specific.
    Senator Warren. Fair enough. This is your wish.
    Dr. Chu. But I would contrast how the Department manages 
skills for the enlisted force versus skills for the officers.
    Senator Warren. Say more about that.
    Dr. Chu. In the enlisted force, the Department has, thanks 
to the Congress, a set of special compensation authorities, 
bonuses as they are called. It has wide latitude within 
constraints Congress established how those are paid and it 
adjusts them. It really is a market and it looks at results on 
both recruiting and retention. So I would consider giving the 
Department somewhat broader authority for special compensation 
for officer communities, to allow it to deal, for example, with 
cyber. So if you are going to be with Google, do you have to 
pay as we are paying for pilots, let us say? Maybe we do; maybe 
we do not. I am not trying to prejudge the answer to that 
question. But I think part of the answer--and that is the 
emphasis I would give--lies in other parts of the system, not 
just in DOPMA per se. It is also a matter of how you administer 
the new retirement system. It is an issue of how you administer 
other items of compensation. So my one wish would be broad 
bonus authority for the officer corps the Department can apply 
in communities where it needs help as opposed to specialized.
    Senator Warren. Thank you.
    Mr. Levine?
    Mr. Levine. So I get to choose a different one.
    Senator Warren. Yes.
    Mr. Levine. So what I would suggest is--Dr. Kane mentioned 
the idea of sabbaticals. There are several different ideas 
around that idea. There is the career intermission program, 
which is currently a pilot basis. There are sabbaticals. There 
is also the idea of opting out of a promotion cycle. These are 
all ways that you can build in additional flexibility into 
officer careers so that this idea that you just have to keep 
punching tickets and there is only one path, you can get more 
flexibility into that and officers can build greater depth and 
experience, greater breadth of experience. They can even, under 
some of these programs, take time out to start a family, but 
create greater flexibility within the existing system without 
disrupting the overall system and disrupting the military's 
ability to plan.
    One thing I would emphasize about that is I know we all 
think that the military is resistant to change, but I had the 
honor of serving with two of the officers who will be on the 
next panel and immediate predecessors of the other two. They 
all supported this idea that we should build in this greater 
flexibility. The sabbatical program, the career intermission 
program, because they have been pilots, young officers have 
been unwilling to trust them and to believe that promotion 
boards will give them full credit and will understand why they 
chose the career paths that they did. But I believe that if we 
make them permanent and if we make this an established part of 
the way the career pattern works with the help of our military 
leadership, we can really build some more flexibility.
    Senator Warren. Actually I just want to make sure I am 
drawing the right point here. It is not that we make it 
permanent. It is that we open up the possibility that you can 
do it and you can make it permanent if you choose to make it 
permanent.
    Mr. Levine. Congress would have to open up--would create a 
permanent authority, but the servicemember would have to be----
    Senator Warren. A permanent authority, but you make the 
decision whether or not it is permanent and obviously what the 
parameters are for that.
    Mr. Levine. Yes, Senator.
    Senator Warren. All right, good.
    Dr. Kane?
    Dr. Kane. This is one of those juicy questions and the 
genie says you get one wish.
    Senator Warren. Yes, exactly.
    Dr. Kane.--three wishes.
    Senator Warren. I know. I know. But the other two guys 
already slurped up the first two.
    Dr. Kane. This is broad, but I would end the tyranny of the 
personnel commands. I will tell you a little story because I 
think this is what galvanized me to start. I left the military, 
became an economist. I did not think much about these issues. I 
was not an expert.
    A friend of mine was in the Air Force, 9/11 had happened 
and he was doing a mission. He was doing a targeting mission 
and got a call from Air Force Personnel Center that said, hey, 
congratulations, Major. You get to go back and get your 
master's degree. He is like I am helping find the enemy and 
putting bombs on the enemy and keeping America safe. I do not 
want to go. But there is so little control and there is so 
little respect for these men and women who volunteer to control 
their own careers. All the needs of the Air Force have to come 
first.
    It is such a nice sounding slogan, but what if that 
actually is short-term oriented and not long-term oriented? 
Because they ended up losing this officer. He did get 20 years 
of retirement, but he could go and work for a different 
government agency and do the exact same mission, but he had to 
give up his 20-year retirement. He had to go home and explain 
to his wife and kids we are not going to have health care 
forever because I want to serve my country, and the Air Force 
will not let me do that because he had already got two master's 
degrees on the taxpayers' dime and he did not want to go get a 
third. They needed a warm body and they said, no, no, you are 
the guy. He said I am not going to go. They said, well, we will 
forcibly retire you.
    That is the kind of nonsense that happens when people 
cannot control their own careers. I think part of that is 
saying we will manage it for you. There is incredible 
responsibility placed on the shoulders placed of the personnel 
commands, and they do the best they can. But I have had so many 
meetings and calls. At HRC [U.S. Army Human Resources Command], 
I visited NPC [Navy Personnel Command] at Millington. They are 
just as frustrated, but they are given their mission and they 
do the best they can.
    So I would relieve them of that burden and say one thing to 
change in DOPMA is you do not have to retire after you have to 
promote two times. You just do not. So people would not have 
that pressure of playing the game, checking the boxes, and the 
personnel commands would not say, gee, if you do not go to this 
school or you do not get this master's degree or you do not 
take this joint assignment, you are not going to get promoted. 
It is just not there anymore. That is what you can fix with a 
sentence. The Senate can fix.
    Senator Warren. Can I just ask? I know we are over, but I 
just want to ask on this, just probe just a little bit. You are 
confident that if we made that change, we will not end up with 
an officer corps that sort of bulges out and is sluggish. I 
always like to remember somebody had something in mind when 
they wrote that. They thought there was a problem they needed 
to fix. It does not mean they got it right.
    Dr. Kane. President Eisenhower.
    Senator Warren. But it means you have at least got to think 
about what happens if you roll it the other direction.
    Dr. Kane. President Eisenhower--this goes back to the Civil 
War. The class of 1868 out of the Naval Academy--none of those 
graduates were able to get past lieutenant for 21 years----
    Senator Warren. Yes.
    Dr. Kane.--because they did not have an ``up or out'' 
system. So they instituted it, but now it has crept down the 
ranks. It is not just for the generals. It sort of influences 
everyone, and it is not ``up or out.'' It is sort of ``up or 
up.'' You just sort of play by the rules. You get promoted sort 
of lockstep.
    I would force ``excellence or out.'' Every 2 years, you are 
recompeting for a position you are in, and if your boss decides 
to hire someone else, she has the right to do that. You need to 
go look for another role within the military. If you cannot 
find anyone to hire you, thank you for your service.
    Senator Warren. So you think that is a way that we could 
prevent that from happening. So there would be another way to 
do that.
    Dr. Kane. Yes, ma'am.
    Senator Warren. All right. Very valuable. I find it 
enormously helpful to hear very specific suggestions.
    Dr. Chu. If I may.
    Senator Warren. Dr. Chu, if this is okay.
    Dr. Chu. We are treating ``up or out'' as if it is either a 
good or bad idea for all promotions. There is differentiation 
here that might well be considered, and that is up through 
about O-4, you may well want an ``up or out'' system because 
that is really, I would argue, a ``perform to stay'' criteria, 
and it helps avoid the kind of gumming up of the system that 
Dr. Kane had described. It may be beyond that that you want to 
be somewhat more relaxed about how many chances people have to 
O-5, to O-6, and so on especially to O-7.
    I particularly would highlight what I think is an 
unfortunate wrinkle in the law, which is the bar to 
commissioned service beyond 30 years of service. Now, I do not 
think you necessarily want every O-6 to stay for 35 to 40 years 
of service, but there is a cadre in every service in my 
judgment of the military of senior O-6's who are not going to 
make general officer or flag but who are the senior experts in 
their area. You speak about the lawyers, for example, deep 
knowledge of the system. I think you want to have a way to 
perhaps retain some more of those people who may be at the peak 
of their professional abilities when they hit 30 years of 
commissioned service and our system says there is a way to deal 
with retiree recall. I recognize there are end runs around the 
constraints, but to more systematically think about keeping the 
most experienced, deeply technical O-6's for longer than 30 
years of commissioned service.
    Senator Warren. Right. But if I can, you describe that as a 
more relaxed requirement. I realize it is relaxing the ``up or 
out'' part of it. But if I understood Dr. Kane correctly, it is 
not so much a more relaxed. It actually just changes what the 
sorting device is. So it is no longer ``up or out,'' but you 
say we will substitute ``other,'' like recompete for the same 
job every 24 months. Is that right? Do you agree with that, Dr. 
Chu? Is that right?
    Mr. Levine. Senator, if I could on that point.
    Senator Warren. Please.
    Senator Warren. I think that as you look at the military 
personnel system, you have to keep the culture in mind too. One 
of the central aspects of the military culture is an inability 
to say no. So I would be very concerned about abandoning an 
``up or out'' system in that if you say all the really best 
people we are going to keep, there is an inability to tell 
anybody that they are not one of the best.
    Senator Warren. All the children are above average.
    Mr. Levine. So as painful as it is to have arbitrary rules, 
sometimes those arbitrary rules really serve an important 
function.
    So the way I would try to meet Dr. Chu and Dr. Kane's 
objective there is by allowing the occasional exception or the 
career field where you are going to build in some exceptions 
because we need to retain talent but not by abandoning the rule 
which I think is a structure which is a need to force decisions 
which otherwise people would be very reluctant to make.
    Dr. Chu. I think that does bring us back to the culture 
point because, as you all know, under DOPMA, the service 
secretary has authority for selection, retention, and grade. 
Rarely does the service use this authority. It also has 
authority on the other side of that coin to select out, and the 
boards have authority to say that this officer perhaps should 
be reviewed for dismissal from the service, not in quite so 
strong a language I acknowledge, but again rarely used except 
when we have a downsizing problem and we have to have a 
reduction in force of some kind. So I think trying to 
encourage--to have a conversation with the service about could 
we use these tools more aggressively to achieve some of these 
results would be very productive.
    Senator Warren. Good.
    Senator Tillis. Senator Warren, you were going right after 
the questions I was going to ask.
    When we talked last week, most of the top tier management 
consulting firms dealt with the ``up or out'' issue back in the 
mid-1990s when you had two shots at making partner. If you did 
not, you left. We were losing some really deep talent that was 
a very important part of our go-to-market strategy, but we did 
have a period where we started bulging and started creating a 
diamond pyramid. So we did have to go back through and figure 
out how to do the refresh and I think get closer to what Mr. 
Levine is saying to force the excellence for that versus kind 
of a holding area. There has got to be a constant attainment of 
knowledge and skills and a broader contribution. So I think 
that that discussion was very helpful.
    One thing that I would like to ask you all to think about 
and possibly get back with us. We talked a bit last week. A 
part of what we may need to do is shed light on flexibilities 
and options that are already available in DOPMA that are not 
regularly used. They are used on an episodic basis. Because I 
would rather shed light on that. In the next panel, we will 
talk a bit about it. But shed light on let us fully get all the 
juice we can out of the current authorities that you have and 
then figure out what additional flexibilities you need and with 
that, accountability for dealing with the peaks and troughs and 
the challenges for bringing people in for special needs that 
may not be long-term, those sorts of things. I would really be 
interested in your feedback on what is actually possible within 
DOPMA that is not really a part of the day-to-day operation and 
execution of the personnel practices. So I would appreciate 
that feedback if you could give it some thought and potentially 
accept that as a question for the record.
    Senator Tillis. The last thing I want to do--and it is 
mainly Dr. Kane to set the stage for the next panel, to react 
to it, is something that you said last week and you referred to 
today. That has to do with you get an assignment, you get a 
person, you do not really get to do that sort of background 
hiring check. You also said something in particular that had to 
do with things that may not be in the file but may be 
information you would gather if you just had that final 
discussion before somebody gets deployed. You were particularly 
talking about sexual assault.
    Would you just frame your position while I have got 
people's attention so that after you do your opening 
statements, I would like for you to give me a response from the 
perspective of the people who will speak in the next panel?
    Dr. Kane. Yes, sir. The issue of sexual assault in the 
military bothers me. It is 10 times higher than it is in the 
civilian sector. I went to the Air Force Academy. I would be 
very proud if any one of my daughters--and we have three--would 
want to go. But I realize I am kind of sending her into the 
lion's den in a sense.
    As I learn more about this issue, I do not really have a 
position and I am not an expert and understand the UCMJ 
processes. But I do understand that we entrust the captains of 
Navy ships with nuclear weapons and tremendous wartime 
responsibilities but not the authority to hire, not the 
authority to just--and I understand the risk of creating an old 
boys' club where commanders can just build their team. But why 
not at least have the personnel commands sends them three 
nominees, and then they call the previous commanders and say, 
``What do you think about this guy?'' ``Well, he has not 
committed a crime but there have been some problems. There have 
been some off-color jokes.'' ``And you know what? Who else are 
you talking to?'' ``Oh, I have heard about him. He is a solid 
blah, blah, blah.'' That human dimension to human resources has 
really been taken out. So I worry that that is a big part of 
the problem. Even if you got all of the UCMJ and who is going 
to do the prosecuting perfectly right, you still have a 
filtering problem before they become criminals where they are 
just predators. I think that only gets fixed when you fix DOPMA 
and you include commanders in the process.
    To your point, there is some flexibility right now for the 
Services to do that, to institute--give three names to each 
commander. There is great flexibility to do better performance 
evaluations which are, if I can use mild language, a disaster 
in the Air Force, and they are a disaster in the Army. They are 
incredible in the Marines. So the marines seem to know how to 
do performance evaluations really well.
    I have 20 recommendations in the book ``Total Volunteer 
Force.'' Maybe a third require legislative action, so the other 
two-thirds, yes, there are flexibilities and they are not well 
used now. But I would say that a third are really critical. 
DOPMA and the requirement to be promoted after two bites at the 
apple I think is silly. Some of them are compensation, some 
rigidities in compensation that this new blended retirement 
system will help, but it is hard to get lateral entry when you 
have already got someone halfway through a 20-year retirement. 
Can they leave, come back, what happens?
    I will stop there.
    Senator Tillis. Well, thank you.
    We are going to transition to the next panel, but again, I 
appreciate the reference to the book. But those suggestions on 
things that we should look at--do not fix something that is not 
broken, but let us figure out ideas that we can discuss that 
really prompt more extensive use of the authorities and the 
flexibility that is out there. I think it would be helpful and 
instructive to us.
    Thank you all for being here. You have spent a fair amount 
of time on the Hill the last couple of weeks talking on this 
subject. We really appreciate your continued engagement. Thank 
you.
    Mr. Levine. Thank you, Mr. Chairman.
    Senator Tillis. We will now transition to the next panel. 
The second panel includes Lieutenant General Thomas Seamands, 
Deputy Army Chief of Staff, G-1; Vice Admiral Robert Burke, 
Chief of Naval Personnel; Lieutenant General Gina Grosso, 
Deputy Air Force Secretary for--Chief of Staff for Manpower, 
Personnel and Services; and Lieutenant General Michael Rocco, 
Deputy Marine Commandant for Manpower and Reserve Affairs.
    Thank you all for being here. We will start with General 
Seamands. Welcome.

STATEMENT OF LIEUTENANT GENERAL THOMAS C. SEAMANDS, USA, DEPUTY 
                      CHIEF OF STAFF, G-1

    Lieutenant General Seamands. Thank you, sir. Chairman 
Tillis, Ranking Member Gillibrand, distinguished members of the 
committee, I want to thank you for the opportunity to appear 
before you on behalf of the United States Army to testify on 
DOPMA. I have submitted a statement for the record and would 
like to highlight a few of the points from it now.
    DOPMA has been in place since 1980, and it has worked well 
to standardize the management of the career Army officers. We 
now believe it is time to consider changes needed to more 
effectively and efficiently recruit, assess, retain the 
talented officers needed to sustain our ready force and to 
better manage and employ individual talents and specialized 
emerging skills.
    Over the past 38 years since DOPMA became law, our service 
needs, technology, the population we bring in, develop, and 
eventually return to communities have all changed. In fact, in 
the past 10 years alone, the Army has grown, drawn down, and 
thanks to you, grown again.
    While current DOPMA authorities allow for the Army to 
determine the required mix of grades and the numbers within 
those grades to execute assigned roles and missions, we are 
challenged to sustain some low-density, highly technical 
specialties like cyber that has already been discussed or 
specific skill populations within the larger branches.
    The Army is about people. A review and adjustment to DOPMA 
would enable more efficient and effective management of human 
capital to help ensure inevitable cycles of reduction and 
expansion work more smoothly for the Services.
    Our analysis tells us while DOPMA is the solid framework, 
it would benefit from a review and adjustments to offer 
opportunities for managing key and critical skills within 
officer grades to deal with today's rapidly changing world. We 
believe there are opportunities for change that would enhance 
our ability to better meet the current and future requirements 
for both the Active and Reserve Forces. We welcome the 
opportunity to work with the committee.
    Sir, if I can go off script for a second, I want to thank 
you for setting up the previous panel. That was like a Ph.D. 
level discussion, and I took away a lot of notes that will be 
very useful.
    Again, sir, I would like to say again we really appreciate 
the committee's continued support of our Army needs as we have 
adapted to challenges for a prolonged conflict and welcome the 
opportunity to come before you today to testify concerning this 
critical personnel issue. I thank all of you for your continued 
support of our all volunteer Army.
    Chairman, if I can ask for a clarification. You asked us 
when we finish our opening statements to make a comment. Was it 
on the hiring or on the SHARP [Sexual Harassment Assault 
Response Prevention] that you wanted us to make a comment?
    Senator Tillis. I am sorry?
    Lieutenant General Seamands. When you asked Dr. Kane the 
final question----
    Senator Tillis. It was on the hiring.
    Lieutenant General Seamands. On the hiring?
    Sir, the Army has put together a program called IAM, 
Interactive Assignment Module. What that does, sir, it creates 
a marketplace for the officers in the Army and the commanders 
and the units that are in the field. It is a Web-based 
technology system. We piloted it about a year ago, and now 
every officer on a current assignment cycle will do it.
    Essentially what happens, Senator, is the officer goes in 
and puts information into the module that is not readily 
available on the officer's record. So, for example, if they got 
their master's in hydrology, it would be helpful to know when a 
hurricane came through what the officer's skill sets were. The 
unit can go in and identify the officers who meet the criteria 
they are looking for and then engage the officer directly and 
perhaps find an assignment the officer was not thinking about 
before but the skill sets match what the unit is looking for.
    So we are still in the piloting stage. We expect to go 
fully live across the complete Army within the next year of 
officer assignments. But it is a great opportunity to capture 
the skills that are nowhere in the database, give access to the 
units that would be gaining the officers, and start a dialogue. 
So, for example, if a unit is, say, FIP [Federated Intelligence 
Program] fitted to go to Africa for a year, they can go in and 
find out that there was an officer who perhaps had parents from 
the State Department and lived in Africa and has unique skills 
or experience, reach out to that officer, and then come to an 
agreement as to why that officer should come to that unit, what 
would happen to them when they came to give the officer 
predictability and give the unit a known quantity in terms of 
talent.
    [The prepared statement of Lieutenant General Seamands 
follows:]

      Prepared Statement by Lieutenant General Thomas C. Seamands
    Chairman Tillis, Ranking Member Gillibrand, distinguished Members 
of this committee, I thank you for the opportunity to appear before 
this committee to testify on the Defense Officer Personnel Management 
Act (DOPMA).
    Since 1980, DOPMA has served the Army well to standardize the 
management of officer careers. The Army deeply appreciates the 
tremendous support we have received from this committee over the past 
decade as you worked together with us to address restrictions in the 
law, and in some cases, to support suspension of portions of the law to 
ensure that as we grew the Army and later drew down and now grow our 
force again. Thanks to you, we were able to care for those we released 
from Active Duty while maintaining readiness.
    As we are further away in time from DOPMA than DOPMA was to the 
original officer management provisions established in the Officer 
Personnel Act of 1947, we feel it is time to consider what changes are 
needed to more effectively recruit, access, and retain the talented 
officers needed to sustain our ready force, and to better manage and 
employ individual talents/ specialized emerging skills. In preparing 
for this hearing, we began to look at the ways we interact with DOPMA 
in its current state and asked how the tenets of the law affect the way 
we manage the Army's officer corps in support of the national defense 
mission.
                         current implementation
    Current DOPMA authorities allow the Army to determine the required 
mix of grades and numbers within those grades to execute assigned roles 
and missions. It works in the aggregate as we are able to sustain the 
numbers by grade in our officer corps within the boundaries established 
in current law. We are challenged to sustain our low density, highly 
technical specialties or specific skill populations within larger 
branches. We are looking into new opportunities to increase efficiency 
in this area.
    The Army is also able to employ the current DOPMA authorities to 
expand our officer corps when required for war/national emergency and, 
conversely, to draw down its officer corps without significantly 
impacting readiness or the ability to accomplish peacetime/low 
intensity conflict missions. A review and adjustment of DOPMA may 
enable more effective management of human capital, and help ensure the 
inevitable cycles of reduction and expansion work more smoothly for all 
the Services.
                            dopma challenges
    DOPMA does, however, limit the flexibility of Services to 
accommodate unique career path deviations. The Department is reviewing 
proposed statutory changes for the National Defense Authorization Act 
for Fiscal Year 2019 (NDAA) to modernize the DOPMA to recruit, develop, 
promote, and retain officers for today's operational requirements. Once 
we have completed our review and obtained approval of our proposed 
changes not just within the Department, but also by the Administration, 
we will share these proposals with you and provide you with more 
details.
    Increasing flexibility would allow the Army to develop emerging 
skills while still advancing officers in reasonable times and meeting 
career expectations. With the current caps of field grade numbers, the 
Services must manage by separation in the absence of advancement (up-
or-out) as a paradigm. There is still a challenge to retain specialized 
populations now needed for high priority missions like cyber that have 
emerged from global trends.
    Where promotions are concerned, the guidance in DOPMA essentially 
requires up-or-out management. Officers advance through career points 
in year group cohorts determined by their initial commissioning year, 
and compete for promotion at specific points determined by years of 
officer service. At grades below lieutenant colonel, officers twice 
passed over for promotion are either separated, allowed to retire if 
eligible, or selected for continuation by a separate board of officers. 
Promotion opportunity is prescribed in goals for each grade with the 
understanding that officers must be afforded a reasonably similar 
opportunity for promotion from year to year.
                           optimizing talent
    Our analysis tells us that while DOPMA is a framework that is 
effective for an Army of interchangeable parts, it would benefit by 
offering opportunities for managing key and critical skills within 
officer grades to deal with today's rapidly changing world.
    In the area of officer accessions, in almost all cases, DOPMA has 
given the Army the flexibility required to appoint officers at the 
grades needed by offering a sound framework for granting constructive 
service credit to many applicants with special qualifications. In 
working to structure and develop the very technical field of cyber, the 
Army has found that current DOPMA provisions on appointment age and on 
the use of constructive credit for appointment grade may be too 
restrictive.
    The Army is currently implementing a Cyber Specialty Direct 
Commission pilot program authorized in Section 509 of the 2017 NDAA. 
This pilot is constrained to a maximum of 3 years by 10 United States 
Code (USC) Sec. 533(g). Increasing the allowable credit of this 
authority would provide flexibility to recruit better developed cyber 
talent at levels higher than first lieutenant grade. In our Army 
Medical Department, staff judge advocates, Chaplain Corps, the 
permanent and temporary accessions appointment authorities DOPMA 
provided the Army, as modified in subsequent legislation, give the Army 
the authorities needed.
    Promotions are required by DOPMA to be made in the order of 
seniority on the Active Duty list. This provides well for the due 
course officers, allowing for steady state promotion rates. However, 
promoting by seniority on the Active Duty list rather than by order of 
merit as established by promotion selection boards makes it difficult 
to manage the progression of officers whose individual talents and 
demonstrated potential are critical to meet emerging requirements or 
unanticipated missions.
                               conclusion
    In closing, we believe that the provisions of DOPMA likely remain 
valid, and we look forward to collaborating with Congress, the 
Administration, Department of Defense, and our sister services in an 
effort to review applicable provisions of law and to optimize where it 
may be appropriate. Again, we greatly appreciate this committee's 
continuing support of Army needs as we've adapted to the challenges of 
a prolonged conflict, and welcome the opportunity to come before you 
today to testify concerning this critical personnel issue.

    Senator Tillis. Very good. Thank you.
    Admiral Burke?

STATEMENT OF VICE ADMIRAL ROBERT P. BURKE, USN, DEPUTY CHIEF OF 
                     NAVAL OPERATIONS, N-1

    Vice Admiral Burke. Chairman Tillis, Ranking Member 
Gillibrand, distinguished Members of the subcommittee, thank 
you for the opportunity to appear before you to discuss the 
challenges we face and tools we need for effective officer 
personnel management.
    The trends are clear. We are in a war for talent. The 
propensity to serve is declining amidst an improving economy, 
and it is adversely impacting both recruiting and retention. 
Sailors leaving the Navy continue to express frustration with 
our Industrial Age personnel systems and inflexible and complex 
personnel processes.
    Through our Sailor 2025 program, the Navy has begun 
modernizing personnel management programs and training systems. 
In conjunction with that effort, we have undertaken 
transformation of internal business processes to improve 
service to sailors, increase our agility, improve our 
responsiveness, and reduce cost. We have gotten a good start 
within existing authorities, but to achieve the point of 
service expected by our officers and the standard of agility 
and responsiveness needed by our fleet commanders, we need a 
more flexible set of officer management tools.
    Three fundamental areas in which additional flexibility is 
necessary would be first some options to supplement assessing 
officers only at the entry level; second, to provide some 
alternative career paths for officers beyond just the current 
``up or out'' model; and third, the ability to reward talent 
and merit. We think these can be accomplished through 
relatively minor modifications to the current officer personnel 
management framework while maintaining the core DOPMA 
attributes which, again, we think have served us very well.
    So in developing the future officer corps, we envision a 
combination of the current ``up and out'' model, which still 
would very much be the main path for the bulk of our core 
warfighting officers, but we would suggest that it be 
complemented by an ``up and stay'' and ``up and bring back'' 
construct, as well as the addition for an entry path for 
directly hiring experts.
    The majority of Navy unrestricted line officers would 
remain under the ``up and out'' model until they separate from 
the service or retire or transition to an alternative path. 
Again, we think we would need a lateral appointment authority 
to hire experts into high-tech officer specialties like we have 
been talking about earlier today, the cyber fields, information 
technology, artificial intelligence, robotics, even some 
special fields of acquisition.
    Adding an ``up and stay'' option would allow limited 
numbers of officers with specialized skills to remain longer in 
a specific technical or non-command career track.
    And then finally adding an ``up and bring back'' construct 
would provide for rapid return of qualified and experienced 
officers to the Active Duty component.
    Additionally, we have ideas on a number of adjustments 
designed to reward performance, something that DOPMA lacks 
today, as well as some ideas to remove disincentives for 
serving line officers to specialize and/or pursue alternate 
career paths, education, or even life/work balance. Again, 
recognizing that one size does not fit all and some of these 
needs may even be temporal in nature, these authorities would 
need to be tailored for discretionary use to meet each of the 
Services' needs.
    Sir, we appreciate your continuing recognition of the need 
for change to ensure we have the necessary tools for officer 
force management in what is now clearly an increasingly dynamic 
and challenging global security environment. I look forward to 
your questions.
    [The prepared statement of Vice Admiral Burke follows:]

           Prepared Statement by Vice Admiral Robert P. Burke
                              introduction
    Chairman Tillis, Ranking Member Gillibrand, and distinguished 
Members of this subcommittee, thank you for the opportunity to appear 
before you today to discuss the future of officer force management and 
the adequacy of current statutory authority under the Defense Officer 
Personnel Management Act (DOPMA) and Reserve Officer Personnel 
Management Act (ROPMA). As I have testified to in the past, and as I 
have emphasized in discussions with a number of you and your committee 
staff, we are confronted with two fundamental challenges in Navy's 
personnel domain: (1) competition for talent, and (2) the need to 
change the way we do business. This is compounded by the fact that the 
Navy is still working its way out of some sea duty manning gaps, and 
will also need to increase end-strength over the next several years.
    While recruiting and retention are generally healthy today, it is 
clear competition for talent will be increasingly sharp. We have seen a 
decline in propensity to serve among young people possessing the 
requisite academic and physical aptitude necessary to serve. 
Additionally, we are beginning to see the impacts of an improving 
economy on both recruiting and retention. Sailors leaving the Navy have 
increasingly expressed frustration with the Industrial Age personnel 
systems and processes under which we operate, which do not provide the 
kinds of choice, flexibility, and transparency they value and expect. 
Personnel processes and infrastructure remain overly complex, archaic, 
and inefficient. We continue to struggle with these systems and 
processes because of prohibitively-high costs and level-of-effort. Our 
Navy is expected to grow in the years ahead, requiring additional 
highly-talented people, even as we work to retain our current talent 
base to reestablish desired fleet manning levels. Increased accessions, 
alone, will be insufficient to meet increasing manning requirements. 
Retention of every capable sailor across the spectrum of skill sets and 
pay grades will be critical to Navy operational readiness.
    In today's operational and human resources environments, business-
as-usual is unsustainable. Just as the scope and complexity of the 
warfighting challenges we face on the battlefield demand a different 
approach, so, too, does our approach to recruiting, developing, and 
retaining the kind of talented force we need to compete and win in this 
warfighting landscape. In the National Defense Authorization Act for 
Fiscal Year 2017 (Public Law 114-328) (Fiscal Year 2017 NDAA), Congress 
continued progress towards enacting critical personnel reforms, all of 
which are vital to our modernization efforts. Navy appreciates those 
reforms, which offer greater flexibility for personnel management and 
increased career options for sailors.
    At the same time, using existing authorities, we are finding more 
efficient and cost-effective ways to access, train, incentivize, 
retain, and harness the talented people in whom we heavily invest. This 
work began over 2 years ago under Navy's Sailor 2025 initiative to 
modernize personnel management and training systems so as to more-
effectively recruit, develop, manage, reward, and retain the force of 
tomorrow. To sustain these programs and deliver on the potential of 
Sailor 2025, we have started a transformation of internal business 
processes to improve service to sailors, increase organizational 
agility and responsiveness, and reduce cost. However, if Navy's 
personnel system is to get to the level of service expected by our 
sailors, and to the standard of agility and responsiveness needed by 
fleet commanders, a more flexible set of management tools may be 
required.
    As with the weapons systems we use, we must continue to refresh our 
personnel system to keep pace with a rapidly changing world. Our 
workforce must be poised to adapt quickly to new and evolving threats 
as we continue to attract and retain the very best sailors in an 
increasingly competitive talent market. Thus, we will continue to 
evaluate our systems, policies, and practices, and, when appropriate, 
pursue further modernizations to ensure flexibility and opportunities 
for choice, which are desired and valued by the talented cadre of 
people we seek to recruit and retain.
                 where we are with current authorities
Accessions
    In order to create the future force, incoming accessions must have 
the right combination of talent, skills, and potential, to take our 
Navy where it needs to be in the years ahead. Navy established the 
Office of Talent Optimization to create a marketplace using predictive 
modeling and other tools that assist in identifying the right officer 
for the right community, optimizing assignment of Navy's talent in an 
effort to improve both performance and job satisfaction, and, by 
extension, retention. Additionally, to broaden the potential accession 
pool, Navy increased the maximum accession age to 42 for restricted 
line and staff corps officers, and age 35 for the unrestricted line, 
with the exception of nuclear propulsion program and aviation warfare 
officers, which have physiologically-based limits on age.
Promotions
    Because professional advancement serves as a powerful signal to 
officers that the service values them, Navy implemented a number of 
changes to the promotion process to aid in talent management. 
Competitive categories for limited duty officers (LDOs) were 
established to help ensure the highest demand skill sets are selected, 
and to help retain specialized talent. To ensure selection boards focus 
on selecting the best and most fully qualified officers, regardless of 
tenure, Navy removed the distraction of ``Zone'' annotations on 
selection board records. We also implemented processes to ensure full 
consideration of ``Below Zone'' records, again with the intent of 
driving behavior away from the historical ``wait-your-turn'' model. 
Navy leadership also provides selection boards with detailed 
information regarding Navy's needs for officers with critical skills, 
to further emphasize what is currently most in demand in the fleet to 
achieve mission success.
Separations
    In order to retain talent, Navy has reevaluated how we view 
separation from Active Duty. We have created off-ramps to align the 
chief warrant officer (CWO) and limited duty officer (LDO) communities 
to meet operational needs based on officer sustainability initiatives, 
and have reduced the use of waivers for time in grade, minimum service, 
and years of active commissioned service to retain sailors through 
completion of their service commitments. Managing separations is not a 
one way valve--our goal is not merely preventing sailors from leaving 
the service before their commitments end--it is to retain highly-
talented sailors, with a sustained record of outstanding performance 
and leadership experience, in whom we have already heavily invested. 
Navy does not want to indiscriminately retain all sailors, but those 
who, through a consistent track record of exceptional performance, have 
demonstrated their value for further productive service beyond their 
current obligations. Accordingly, we will, if necessary and 
appropriate, judiciously implement congressional authority obtained in 
the fiscal year 2018 NDAA to conduct selective early retirement boards, 
in a precise and targeted manner, to release underperforming senior 
officers, thereby affording hard-charging and talented junior officers 
increased opportunities to compete for earlier promotion.
Work Life Balance and Retention
    Our success in retaining top performing officers hinges on our 
ability to offer them career flexibility through alternatives to the 
traditional rigid career paths. Established programs afford the fleet's 
innovators opportunities to grow and learn in varied environments 
outside the Navy, and return to bring novel ideas back to the fleet. We 
have also initiated a number of other innovative programs to meet the 
increasing retention challenges we face.
    Navy has already seen the benefit derived from being the vanguard 
of flexible policy. For the past 8 years, with your support, Navy has 
conducted a Career Intermission Pilot Program (CIPP) that allows 
sailors to leave Active Duty for a defined time period to meet personal 
and professional goals and aspirations, and reestablish career 
viability upon returning to Active Duty. Since the program's inception, 
there have been 161 participants (59 officers, 102 enlisted), of whom 
43 percent are male and 57 percent are female. The benefit goes far 
beyond those who have taken an intermission, however. Many sailors 
report that just knowing CIPP is an option, if they need it in the 
future, has encouraged them to stay in the Navy.
    The two foremost reasons given for participating in CIPP are 
education (55 percent) and family support (40 percent). Recently, an E-
5 returned from a 36-month career intermission and earned a commission 
in the Judge Advocate General's (JAG) Corps, where competition for 
quality legal and paralegal talent has posed significant challenges. 
The required juris-doctor degree is an obstacle for many talented 
enlisted sailors thriving in the legalman rating to commission into the 
Navy JAG Corps. In this case, a talented petty officer who demonstrated 
exceptional potential, aptitude, work ethic, and drive to excel as a 
JAG Corps officer, was mentored and encouraged to complete the 
requisite degree requirements through CIPP, and to apply for a 
commission in the JAG Corps upon returning to Active Duty. The sailor 
earned a juris-doctor, achieving personal and professional goals, and 
Navy gained a talented JAG Corps officer.
    We established the Fleet Scholars Education Program (FSEP), which 
provides a rich and unique opportunity to provide quality, relevant, 
and diverse education opportunities to the most talented officers in 
the unrestricted line (URL) and information warfare communities (IWC). 
FSEP provides community sponsors the opportunity to reward and retain 
top performing, career-minded officers. FSEP selectees will attend the 
school of their choice in their selected field of study for up to 24 
months, and return to the fleet to continue a viable career enhanced by 
the additional knowledge obtained through FSEP.
    Officers may also participate in our Tours with Industry (TWI) 
program, which is designed to build a cadre of personnel better-poised 
to understand, not only the naval profession, but also the nature of 
strategic problems facing the Department of the Navy, and solutions 
garnered from partnering with high-performing organizations outside of 
the Department. The goal is to develop a better-understanding of long 
range planning, organizational and management innovation, and emerging 
technologies that may influence the operation and culture of the Navy.
    Navy is also developing a Targeted Reentry Program (TRP), a pilot 
initiative, which will empower commanding officers to identify selected 
officers and enlisted personnel for expedited return to Active Duty by 
eliminating burdensome reentry processes, assuming they remain eligible 
in all respects for return to the Navy. TRP would be designed to 
benefit both the Navy and the sailor through resumption of service of 
well-trained leaders with valuable and needed skills, who may 
reconsider their earlier decision to separate from the Navy. This is 
expected to be the leading edge of the Navy's push to increase the 
permeability and ease of transition between the Active component (AC) 
and Reserve component (RC).
Meeting the Demand Signal
    Navy Surface Warfare Officer bonus programs have recently been 
updated to provide additional merit-based retention incentives to our 
best officers with demonstrated performance and future potential. These 
programs provide greater career flexibility and financial incentive to 
those officers willing to commit early to future department head 
assignments. Likewise, we are developing Naval Aviation Warfare Officer 
bonus programs to award merit-based incentives linked to achievement of 
career milestones, scaled by type/model/series and officer designator, 
according to community health. Coupled with non-monetary measures, 
these changes should improve retention, as competition for talent 
increases across the Services, and throughout industry. Corporate 
airlines are positioned to outspend the Services in salaries and 
bonuses, thereby, increasing the challenge of retaining our best 
pilots. Similarly, tech companies are able to offer signing bonuses far 
beyond those which the Services can offer cyber warfare officers.
    In exit surveys, sailors consistently include compensation in the 
top 10 reasons for leaving the Navy, albeit, not the number one reason. 
Since we will never be able to compete dollar-for-dollar with industry 
for the best-and-the-brightest, Navy's ability to retain our most 
outstanding talent clearly depends on our ability to offer 
opportunities for personal growth and to appeal to their sense of 
service and connection to the mission.
              where we are going with expanded authorities
    In the coming years, our Nation will continue to face asymmetric 
and complex threats in a constantly changing national security 
environment. Technology and threats are rapidly shifting and morphing--
and one person can be a disruptor. Our realization that we have re-
entered a great powers era, in which maritime power will be a deciding 
factor, has placed renewed emphasis on naval warfare training at the 
high end of the spectrum. Such realities have made technical expertise, 
agility, and innovation more vital than ever before for our national 
defense. We must be as innovative with human resources as with weapons 
systems and tactics, positioning us to rapidly access, train, and 
retain, the talent required to fight and win in the maritime 
battlespace. Innovative management of personnel will be increasingly 
critical in enabling a future force more adaptive and resilient in the 
face of these new realities.
    Accomplishing these objectives requires that we transition from a 
``conveyor belt'' career model to one more capable of quickly matching 
and rewarding talent-to-task. Historically, we have largely limited our 
All-Volunteer Force recruiting efforts to entry level positions. This 
model will continue to serve us well for producing warriors and leaders 
in our traditional ``core'' warfighting areas, but it is clear those 
``core'' areas may need augmentation--based either on mission 
specifics, time, or technology.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                figure 1.--future officer corps concept
      
    In developing the Future Officer Corps, Navy envisions a 
combination of the ``up and out,'' ``up and stay,'' and ``up and bring 
back'' constructs, with a path for directly hiring experts (Figure 1). 
It leverages authority enacted in the Fiscal Year 2017 NDAA that would 
allow 40 year careers for certain officer designators--for instance, in 
the acquisition field, where we select some officers after the first 
command tour (O-5). The major tenants of the current DOPMA structure 
are sound and will continue to serve us well in ``core'' warfighting 
areas. We expect the majority of the unrestricted line officers in the 
Navy would continue to work along these lines, following todays ``up 
and out'' model until separation or retirement or moving to another 
path. However, we would continue monitoring retention trends for any 
necessary modifications.
    Multiple career path alternatives leveraging lateral re-entry and 
AC/RC permeability may entice a greater number of officers to stay 
Navy--more options means more retention choices and more paths for a 
successful career in the service. We are considering various options to 
improve the Navy's ability to recruit high-tech, low-capacity officer 
specialties, such as cyber, information technology, artificial 
intelligence, robotics, and acquisition.
    Navy looks forward to working with Congress, OSD [Office of the 
Secretary of Defense] and the other Services to discuss the details of 
these concepts as well as other initiatives when appropriate.
                               conclusion
    Navy appreciates the recognition in Congress, and particularly in 
this committee, of the need for changes in statutes that currently do 
not afford the tools essential to effective and efficient officer force 
management in an increasingly dynamic and challenging global security 
environment. Any amendment to DOPMA and ROPMA [Reserve Officer 
Personnel Management Act] should afford discretionary authority to 
service secretaries, to the maximum extent possible, to accommodate 
service-unique mission requirements, force structure, and officer 
personnel management needs. Naturally, any recommendations for change 
must be vetted across the Department of Defense, with each of the 
military Services assessing potential opportunities and challenges 
associated with any recommended changes.
    I look forward to working within the Department and with Congress 
as we continue to shape the Navy officer corps in order to meet current 
and emerging requirements in the context of a dynamic environment. On 
behalf of the men and women of the United States Navy, thank you for 
your sustained and unwavering commitment and support.

    Senator Tillis. Thank you.
    General Grosso?

 STATEMENT OF LIEUTENANT GENERAL GINA M. GROSSO, USAF, DEPUTY 
      CHIEF OF STAFF FOR MANPOWER, PERSONNEL AND SERVICES

    Lieutenant General Grosso. Chairman Tillis, Ranking Member 
Gillibrand, thank you for the opportunity to join the 
discussion today on DOPMA modernization. America's airmen 
remain always there providing global vigilance, reach, and 
power to defend our Nation.
    DOPMA has been achieving its intended purpose and been 
essential to building today's Air Force. As we look to the 
future, infusing flexibility into the law will not only assist 
our efforts in retaining talented officers currently serving 
today but will also ensure the Air Force is an employer of 
choice in our ongoing nationwide war for talent.
    Your Air Force is eager to modernize promotion processes 
and systems. In 2015, we transformed our enlisted evaluation 
and promotion process with much success. Building on this 
success, we are now turning our focus to officer evaluation and 
promotion processes. DOPMA flexibility, such as affording 
officers the option to opt out of promotion, increased 
authority regarding constructive credit, and improving 
permeability between the Active and Reserve components will 
greatly assist our efforts.
    We are excited to partner with you and we greatly 
appreciate the committee's continuing support of the Air Force 
and the interest in discussing DOPMA modernization. We look 
forward to collaborating with the Department of Defense, our 
sister services, and Congress to provide flexibilities within 
DOPMA to keep it relevant in the 21st Century.
    I look forward to your questions.
    If I could just quickly share with you how we hire 
commanders, our Chief of Staff, General Goldfein, as soon as he 
became the Chief, changed the way we hire commanders. 
Commanders hire commanders. So we have a board process that 
calls the list and basically creates a list of people to choose 
for command. That goes out to every hiring authority. That 
hiring authority can look at everybody on that list and pick 
who they want. That information goes to the personnel center. 
What you will find is that then there are some conflicts. So 
all the personnel center does is say, hey, commander A, you 
want this person. Commander B, you want this person. You talk 
about it. They have to resolve it. If they cannot resolve it at 
their level, it goes to the next level, which is usually a two- 
or three-star commander, and we have found that the commanders 
have worked out all of the deconflictions. So in the United 
States Air Force, commanders hire commanders.
    [The prepared statement of Lieutenant General Grosso 
follows:]

        Prepared Statement by Lieutenant General Gina M. Grosso
    Chairman Tillis, Ranking Member Gillibrand, thank you for the 
opportunity to appear before this committee to testify on the Defense 
Officer Personnel Management Act (DOPMA) of 1980. America's airmen 
remain ``Always There'' providing global vigilance, global reach, and 
global power to protect and defend our Nation. Congress has been a 
valued partner the past 70 years providing important legislative 
provisions, such as DOPMA and the Reserve Officer Personnel Management 
Act (ROPMA), to provide structure and predictability for our officer 
corps. The Air Force appreciates the tremendous support we have 
received from this committee and looks forward to partnering with you 
to modernize DOPMA that will keep it relevant for the 21st Century.
    We believe DOPMA has achieved its intended goals to standardize the 
management of our officer corps by establishing officer career lengths, 
driving centralized promotion boards, and directing consistent 
promotion selection opportunity from year to year. These foundational 
elements have been essential to building today's Air Force. As we look 
to the future, we believe it is time to continue leveraging the 
stability and predictability that DOMPA provides but also to modernize. 
This modernization will provide more flexibility into the officer 
management system so we can quickly respond to human capital 
requirements in the Information Age.
    We know that in order for the Air Force to meet the demands of 
tomorrow, we need to be able to compete for, commission, and retain the 
best and brightest leaders from across our Nation. As the labor market 
becomes increasingly more competitive, attracting and keeping the 
bright leaders may require additional flexibilities in our personnel 
management governance. We also know officers serving today desire more 
agility and ability to manage their careers than DOPMA currently 
affords. Therefore, the Air Force is considering legislative changes to 
modernize DOPMA to more effectively recruit, access, and retain the 
high caliber officers needed to sustain our Air Force today and 
position us for the future.
    The Air Force is reviewing proposed statutory changes for the 
National Defense Authorization Act for Fiscal Year 2019 to modernize 
DOPMA and ROPMA to recruit, develop, promote, and retain officers for 
today's operational requirements. Once we have completed our review and 
obtained approval of our proposed changes not just within the 
Department, but also by the Administration, we will share these 
proposals with you and provide you with more details. Today's threat 
environment and emerging missions require an agile, responsive officer 
personnel management system to ensure we continue to attract and retain 
the talent we need to defend the Nation.
    Your Air Force is eager to modernize promotion processes and 
systems! In 2015, we transformed our enlisted evaluation and promotion 
processes with much success. Air Force enlisted promotions are now more 
closely tied to job performance and less to factors such as time in 
grade or time in service. This change enables outstanding enlisted 
airmen to be promoted more rapidly than under the previous system. 
Building on the successes achieved in the enlisted processes, in 2017, 
we initiated a similar endeavor for our officer performance management 
system. This initiative includes a thorough, deliberate review of our 
officer performance evaluation and officer promotion processes. We have 
a dedicated team exploring various officer evaluation and promotion 
considerations which include starting at the foundation with thoughtful 
work focused on what the Air Force values in its officer corps. 
Building on that sturdy foundation, we are actively looking into 
increasing the number of competitive categories, creating a technical 
track and establishing static promotion board dates, to share a few 
examples. We have a draft concept of operations with a four-phased 
approach to modernization which is currently being evaluated by senior 
Air Force leadership.
    We are looking into what we can do to enhance the Air Force's 
ability to execute the right size and mix of capabilities required to 
meet and sustain emerging mission demands in today's rapidly changing 
and competitive environment. While we have the overall authority for 
maintaining field grade officers at the approved proportion of the 
force, we are challenged in managing certain stressed career fields 
such as pilots, cyber, special operations, intelligence, contracting, 
and select health professionals. Exit surveys conducted in 2017 
informed us that the top three reasons officers are leaving the Air 
Force include: maintaining a work-life balance, the high potential for 
time away from their family, and too many permanent change of station 
moves. The theme we take from those departing officers is their desire 
for more control, flexibility, and stability in their career timing and 
advancement.
    We understand that we are in a national competition for talent! 
Your Air Force has become even more technical in nature and as such 
competes for the Nation's highly sought high-tech talent. We appreciate 
the authority to use constructive credit in accessing cyber 
professionals into our ranks. We look forward to exploring a multitude 
of options for strengthening our recruiting efforts in competing for 
this outside talent! Accessing and appropriately compensating this 
highly sought after group of technical leaders will ensure the Air 
Force's continued success into the future.
    Now more than ever, it is critical to remove barriers for officers 
transitioning from the Active component to the Reserve component. 
Currently this process can take several months, and results in many 
talented officers sitting on the sideline or taking advantage of other 
opportunities away from the Air Force due to a more seamless 
transition. It is mutually advantageous to both the Air Force and the 
individual to accelerate the transition into the Reserve component, as 
it ultimately keeps highly skilled airmen in the Air Force. We will 
continue our internal efforts to accelerate this process.
    In closing, we greatly appreciate this committee's continuing 
support of the Air Force and the interest in discussing DOPMA 
modernization. This is a timely and welcomed dialogue as we continue 
our review of officer performance management processes within the Air 
Force. We look forward to collaborating with the Department of Defense, 
our sister services, and Congress to determine what changes may be 
needed to DOPMA and ROPMA to keep them relevant in the 21st Century. We 
want the Air Force to be seen as an employer ``of choice'' to the 
Nation's best prospects. You can be rest assured your Air Force will 
remain ``Always There'' in providing global vigilance, global reach and 
global power for our Nation!

    Senator Tillis. Thank you.
    General Rocco?

STATEMENT OF LIEUTENANT GENERAL MICHAEL A. ROCCO, USMC, DEPUTY 
          COMMANDANT FOR MANPOWER AND RESERVE AFFAIRS

    Lieutenant General Rocco. Chairman Tillis and distinguished 
Members of the subcommittee, thank you for the opportunity to 
appear before you today to discuss officer personnel management 
and DOPMA.
    Your marines are the foundation of the Marine Corps. They 
are the Corps' most critical resource and always will be. Your 
marines are recruited, trained, and retained and educated to 
win the Nation's battles. Everything we do in the Marine Corps 
must contribute to their readiness and lethality in combat.
    Overall, recruiting and retention remain strong. We are 
bringing in and keeping young men and women whose past service 
and future potential makes the Corps stronger. Your marines are 
supported by a professional civilian workforce across the 
service, and they remain committed to the Marine Corps mission.
    We appreciate the support of Congress, especially this 
subcommittee, for the increase in strengths and flexibilities 
that allow us to effectively manage our force. With the 
additional funding, this end strength increase will allow us to 
expand our capabilities to include cyber to meet the 
warfighting requirements.
    We are working with the Department of Defense and other 
Services on the DOPMA study outlined in the NDAA. We are open 
to new ideas and improved officer management and retention such 
as providing lineal list promotion flexibility. When we look at 
DOPMA reform, lineal list promotion flexibility is the Marine 
Corps' number one priority. Lateral entry and ability to opt 
out are other authorities that can prove beneficial. We must 
remain adaptable and consider new ways to recruit and retain 
the high-tech force that we need for the future.
    Chairman Tillis, I look forward to answering your 
questions.
    If I just may add for the Marine Corps on the command 
board, I would pick commanders. We have separate command boards 
much like our promotion boards. We take a group of former 
commanders, sequester them much like a promotion board, and 
then they review the records, and then they provide 
recommendations to the Commandant.
    [The prepared statement of Lieutenant General Rocco 
follows:]

       Prepared Statement by Lieutenant General Michael A. Rocco
                              introduction
    Chairman Tillis, Ranking Member Gillibrand, and distinguished 
Members of this subcommittee, thank you for the opportunity to appear 
before you today to discuss our officer personnel management and the 
Defense Officer Personnel Management Act (DOPMA).
                              your marines
    Since our founding in 1775, marines have answered our Nation's 
call, faithfully serving the American people and maintaining a standard 
of military excellence. Your Marine Corps is, and will continue to be, 
our Nation's expeditionary force in readiness. We are ready to rapidly 
respond to crises around the globe as a highly lethal combat or 
effective humanitarian force to ensure the continued security of the 
American people and to protect the interests that underpin our Nation. 
Marines will be always faithful to the trust which the American people 
have vested in them.
    Your marines are the foundation of the Marine Corps. They are 
recruited, trained, retained, and educated to wear the Eagle, Globe, 
and Anchor with pride, and to fight and win our Nation's battles. They 
are smart, resilient, fit, disciplined, and motivated by a unique, 
unwavering esprit de corps. They are dedicated to upholding the honor, 
courage, and commitment of the generations of marines before them, and 
of our Corps.
Recruiting
    Recruiting high quality youth and retaining those whose past 
service and future potential continue to make the Corps stronger are 
our highest priorities. The transformation of marines begins with 
entry-level training, whether it is recruit training, Officer Candidate 
School, or the United States Naval Academy, and continues throughout a 
marine's career. Today, through the hard work and diligence of our 
recruiting force we continue to identify high quality men and women of 
character who desire to take up our challenge to serve this great 
Nation as United States marines.
    All recruiting efforts for the Marine Corps (officer, enlisted, 
regular, Reserve, and prior-service) fall under the purview of the 
Marine Corps Recruiting Command. Operationally, this provides us with 
tremendous flexibility and unity of command, facilitating efforts to 
meet accession requirements. The Marine Corps applies, evaluates, and 
refines proven, time-tested officer and enlisted recruiting policies 
and procedures that are reflected in the high mental, moral, and 
physical standards of our applicants, such as SAT, ACT, and ASVAB 
[Armed Services Vocational Aptitude Battery] testing; preenlistment 
physical screening and fitness tests; and security background checks 
and preenlistment screening.
    Last fiscal year, we successfully achieved all enlisted and officer 
recruiting goals for both the Active and Reserve components. This year, 
we again expect to achieve our annual recruiting `shipping' mission 
(i.e. new accessions sent to recruit training and Officer Candidates 
School) and quality goals. Moreover, our quality is historically high. 
The Department of Defense requires 90 percent of enlistees to have a 
high school diploma or equivalent (Education Tier 1), and 60 percent of 
enlistees to be in Mental Group I-IIIA (assessed mental aptitude). Last 
year, the Marine Corps achieved 99.9 percent of Tier 1 and 72.3 percent 
of Mental Group I-IIIA; we expect to be at or near these levels for 
fiscal year 2018. We did not assess any applicants in Mental Group IV 
in fiscal year 2017 and do not expect any in fiscal year 2018.
Retention
    As the Marine Corps manages its force, and increases its end 
strength to 186,000, the challenge to keep high-quality marines in the 
service in a competitive civilian job market will continue. This is 
accomplished through a competitive career designation process for 
officers that has proven very effective. We expect to meet our overall 
retention goal again for fiscal year 2018.
    Warfare has grown increasingly technical, so we need officers who 
are skilled and capable of operating effectively in highly technical 
areas, e.g. cyber, that are prevalent in all aspects of modern warfare. 
However, the most important qualities will remain leadership, 
performance, and the collective experiences--experiences that often 
take time--that imbue the officer with the knowledge and understanding 
needed to succeed in the myriad roles in which the officer will be 
called on to lead the men and women who serve our Nation in arduous 
conditions and austere environments.
    A very real way to improve retention of officers with the 
leadership, skills, and experience for the current and future fight is 
to maintain and fund bonuses and incentive pays. We will increasingly 
depend on these incentives in the future in order to retain officers 
and enlisted marines in critical skills or in high-demand/low-density 
occupations. We recently reinstituted the aviation bonus for specific 
aviation communities experiencing shortfalls.
    Continuing resolutions negatively impact our ability to use bonuses 
and incentive pays, capping them at previous fiscal year levels. This 
has affected our retention of aviators and other key skill sets because 
retention decision points are not made at the same rate during the 
fiscal year--they ebb and flow over the course of the year. To 
effectively employ these tools requires predictable funding streams. 
Because of continuing resolutions we have repeatedly been forced to 
delay payment of re-enlistment bonuses due to lack of funding. As a 
result we have failed to retain key officers and other critically 
skilled marines.
                                 dopma
    Enacted in 1980, DOPMA has proven to be a predictable and equitable 
way to manage the appointment, promotion, separation, and retirement of 
our officers. It has given us the tools to manage a large force, 
maintain healthy personnel grade pyramids, and build Marine Air Ground 
Task Force (MAGTF) officers with broad and deep skills. DOPMA has 
allowed us to create and maintain adequate promotion/retention flow 
within our officer corps. Our current system is merit-based (board 
selected) and promotes the best, most fully qualified officers. This 
system works exceptionally well for us because our inventory is created 
and maintained directly based upon structure (billet) requirements. The 
flexibility of the system allows the Marine Corps to design the ideal 
balance within the officer corps to respond to future requirements, 
stabilize the force, drawdown when required by Congress, and accurately 
program and budget the service military personnel account.
    Over the decades as requirements have changed due to the changing 
strategic environment, DOPMA has evolved and been improved to allow us 
to properly manage our officers. Recent early retirement, voluntary 
separation, and time in grade waiver authorities have proven effective 
in allowing us to execute our recent drawdown and continue to shape the 
force. We thank Congress for these authorities and the myriad of other 
force shaping tools it has given us.
                       officer management reform
    We are always assessing ways to create more flexibility to recruit 
and retain the officers we need to enhance our readiness and lethality. 
Increasingly, war fighting is becoming more sophisticated, technical, 
and complex. Cyber operations, information and electronic warfare, 
enhanced command and control, intelligence, engineering, civil-military 
operations, manned/unmanned teaming, robotics, and the leveraging of 
artificial intelligence are examples of critical skills we will need 
for the future fight. Creating incentives through continued reform will 
help us now and in the future.
    Creating separate competitive categories for certain officer 
occupations is also being evaluated. We recently created a separate 
competitive category for our financial managers and will conduct 
detailed analysis to determine its effectiveness and the feasibility to 
implement for additional occupational fields.
    Non-command career tracks are also being discussed. We are 
assessing whether this would result in adverse second-and third-order 
impacts for the Marine Corps. Any such tool must be implemented 
equitably; it is not something that should be offered to some, but not 
similarly-situated others. In addition, we must always remain vigilant 
about maintaining a high-quality pool of officers to consider for 
promotion. In some respects, our current ability to continue officers 
who are twice passed for promotion achieves the intent of the non-
command career track, enabling officers with needed leadership and 
skills to remain in service, albeit at the same grade.
    However, the Marine Corps depends on our foundational schools, 
training, and broadening tours within the MAGTF to increase skills and 
infuse our ethos and warrior culture. Although we have some 
occupational fields that we contract specifically for (e.g. lawyers, 
aviators) or manage and promote separately (e.g. financial managers), 
marines in these occupational fields all go through the same initial 
training as the rest of the officer Corps to earn the title marine. Any 
guidance to bypass these schools, training, or MAGTF broadening would 
be a significant change in Marine Corps officer management philosophy 
and should be approached carefully.
    We look forward to working with the Department on the DOPMA study 
required by the fiscal year 2018 NDAA. We believe it will help guide 
future changes to how we manage our officers and better enable us to 
manage our exceptional talent.
                               conclusion
    The goal of officer management--and all force management--must be 
to create, maintain, and improve lethality and combat readiness. DOPMA 
has proven effective at doing so, but we are open to ways to improve 
it. The Marine Corps supports creating a highly flexible and agile 
statutory and policy framework for officer development and utilization. 
We welcome the opportunity to study and evaluate specific policies 
being proposed, including their impact on our current MAGTF construct. 
In doing so, making well-informed decisions based on rigorous analysis 
to ensure lethality, combat readiness, fulfilling operational 
assignments, and the overall needs of each Service are paramount.
    Thank you again for the opportunity to present this testimony.

    Senator Tillis. Vice Admiral Burke, do you want to weigh in 
on that one? I was going to get you on the tail end.
    Vice Admiral Burke. Yes, sir. Sorry I did not answer up 
front.
    It is not a trust issue for not allowing the commanders to 
pick their crews, but it is more of a time issue, minimizing 
their distractions. But we do recognize the need to allow them 
to pick their talent in an effort to also make sure there is an 
adequate talent distribution across the fleet, that you do not 
have too much of a concentration in one area and a lack of 
talent on another ship or another squadron.
    But we have piloted an effort under our Sailor 2025 efforts 
that we call detailing marketplace, which is very much a 
version of LinkedIn for the Navy. Sailors get to put an 
enhancement to their service record that puts additional 
information why they think they are the prime pick for that job 
and communicate directly with the commands. So it is 
information in addition to their educational and job and 
experience records and then communicate directly with the 
commands to sort of negotiate and sell themselves and increase 
the transparency in the process for the sailors which gives 
them a lot more confidence. It also allows a little bit of 
horse trading in terms of preferences and allows the commanders 
to be much more involved in seeing the entire field instead of 
having an external agency do invisible talent matching for them 
without them being able to see the whole thing.
    So we are on our sixth pilot for that right now. We have 
done a mix of officer and enlisted community pilots, and we 
will be fielding it when our new information technology rolls 
out here this summer. We are going to be doing it on sort of 
handheld-based devices in about the August time frame.
    Senator Tillis. Admiral Burke, I also wanted to thank you 
for the time you spent with me in the office. You talked about 
the ``up or out.''
    [Audio disruption.]
    Vice Admiral Burke. Yes, sir. In the cyber world, again, 
the Navy experience, which I would say is not unlike the other 
Services--we have a curriculum at the Naval Academy established 
in 2013. It was accredited just last year, and the first 
graduates graduated in 2016. In the class of 2019, we will have 
about 30 cyber warfare qualified graduates directly 
commissioned into that community. But for the most part, it is 
our cryptologic warfare folks from that community who also 
cover down on the cyber warfare mission, the offensive part of 
it. Our information professional community handles the 
defensive part. Then our technical subject-matter experts are a 
new LDO, limited duty officer, community that we created, and 
we are tapping senior enlisted cryptologist talent to fulfill 
those roles. We are kind of broadening that talent pool as 
well.
    The one area that was a new mission area for us that we are 
having particular challenges with is in the cryptologic 
warfare--or rather, the cyber warfare engineer realm. These are 
the folks that write the software, do the coding for the 
offensive operations, very much in high demand within other 
government organizations, as well as in the civilian community. 
Right now, we are directly commissioning those folks and 
growing them in a relatively limited officer community pool. 
Right now, it is an O-1 to O-3 type of community. We have got 
about 40 officers in the program. You gave us some relaxed 
authority to do a direct commission option with the ability to 
give 3 years constructive credit, but that is kind of O-1 to O-
2 pay, which still leaves you in the mid $40,000 initial salary 
hiring range, give or take. What we are finding is those folks 
are in high demand elsewhere, and they are being hired in the 
hundreds of thousands of dollars a year salary range.
    Senator Tillis. I was about to say $40,000 could be the 
signing bonus.
    Vice Admiral Burke. Right.
    Senator Tillis. Similar experiences in the other service 
lines?
    Lieutenant General Seamands. Yes, sir. We are running the 
pilot and we appreciate the authority to bring in people with 
up to 3 years. We would like to see that expanded just like 
with AMEDD [Army Medical Department] to bring in more senior 
people. Related to that may be a relaxation of the requirement 
to have 20 years active commissioned service by the age of 62 
because we think there may be some people in industry or 
academia who would come in if they came in as a major or 
lieutenant colonel and they may be a little bit older and be 
able to bring that experience and education to us. But I would 
echo the Admiral's comments.
    Senator Tillis. General Grosso?
    Lieutenant General Grosso. Chairman, I would just echo 
that. The cyber career field for the Air Force is an example, 
which Dr. Chu described as a cylinder. So that is where that 
constructive credit really helps because you could bring a 
talented person in at that field grade level rather than take 
10 years to grow them. So I would just echo constructive credit 
would be tremendously helpful for us.
    Lieutenant General Rocco. In the Marine Corps, we are still 
developing it. We have marines right now, both enlisted and 
officers, doing cyber missions both on the offense and defense. 
We have, granted, a tyranny of small numbers, but we are 
bringing marines from other fields, be it the intel field, the 
information operations field, cryptologists. We are bringing in 
marines who have a propensity for that skill, bringing them in 
directly into MARFORCYBER [U.S. Marine Corps Forces Cyberspace 
Command], sending them off, getting their qualifications, and 
then putting them to work in the cyber field.
    Senator Tillis. General Grosso, I wanted to ask you a 
question. I know it was a topic that was discussed before the 
full committee.
    First, I know that you do have some widespread shortages 
among mid-grade officer ranks. There was a decision to move 
forward with offering a 100 percent promotion opportunity. I 
believe at the time in the hearings, if my memory serves me 
correctly, that was not a permanent strategy but was in place 
to deal with some of the challenges that you have.
    Over what period of time do you think you will continue to 
maintain that policy? If you moved beyond that, then how have 
you fixed the problem or was this just an episodic strategy?
    Lieutenant General Grosso. Well, as we find we have got 
continuing growing end strength, we have shortages in the field 
grade, every non-rated field grade skill set. So that is why we 
went to a fully qualified promotion. That board is complete, 
but it is making its way through the process and the Secretary 
has not seen it yet. So once the Secretary approves that, we 
will definitely come over and share the results with you. So I 
think it is too early to give you a good answer on what the 
future is because I think we are going to see how did that 
board do, was the Secretary comfortable with the results. That 
decision was made just as she was coming on.
    But I do think that constructive credit helps because our 
shortages are at that field grade level. So how we get talented 
field grade level in, we are leveraging the Reserve component. 
It sort of gets to what Dr. Kane was talking [about]. Can you 
keep the talent that you have if it is performing well? Can you 
bring talent in at that mid-level as it takes us time to grow 
the force? But it definitely would not be a long-term thing 
because eventually we are assessing enough to grow into that.
    Senator Tillis. Thank you.
    One of the things that I asked the prior panelists and a 
broader group that we met with last week was on the areas of 
how much of this could be fixed through more effective use of 
flexibilities you have today. So if we came back with a long 
list of tools that you already have in the toolbox that you are 
not using, are there any ones that you has looked at and think 
that they are not necessary? I mean, is there just this muscle 
memory and you have not gone back to really fully explore what 
authorities you already have, or have there been thoughtful 
reasons why certain authorities you do not think are 
particularly helpful that others may think you should use?
    We will just go down the line. We will start with General 
Rocco.
    Lieutenant General Rocco. We currently feel we have 
flexibility within the current DOPMA system to do much of what 
we did. As I discussed in my opening comments, our number one 
priority is the merit-based lineal list adjustment. So we can 
reward those high performing officers, those men and women that 
perform well ahead of their peers. So we feel if we have that 
adjustment, that will go a long way in solving some of the 
other issues we have.
    Again, when we talk about DOPMA and we talk about not 
having enough or having too many at certain levels, at least in 
the Marine Corps, we are not at our DOPMA ceilings for the 
numbers of officers. We promote based on requirements, not just 
based on somebody who wants to hang around. I think our 
promotion rates kind of support that where we retain, for the 
most part, the best and the brightest with an 85 percent 
promotion rate to captain, 70 percent to major, and so on and 
so forth. If you do make lieutenant colonel, which is about a 
60 percent promotion rate, you can stay to 28 years.
    One of the things I noted from the previous panel that I 
wrote down that we are going to pursue is the retire/retain. I 
fully agree with some of the members of the last panel. At 30 
years, the requirement is colonels need to retire. We do have a 
retire/retain, but we need to pursue that I think a little bit 
further.
    Lieutenant General Grosso. Mr. Chairman, I think as we 
embark on this full-scale review of our promotions and 
evaluations, you will see us taking advantage of all of the 
flexibilities. I think you will see increased competitive 
categories. You will see some technical tracks as we do some 
modeling on that. So I think those flexibilities are very much 
appreciated, and I think we just culturally were not at a point 
where we were comfortable using them. But I think you will 
definitely see that in the next couple years.
    Senator Tillis. Thank you.
    Admiral Burke?
    Vice Admiral Burke. We are confident that the things that 
we are asking for--we have exhausted the full range of the 
authorities that we have. We have done a lot of things under 
Sailor 2025, and we have multiple year groups in a single 
promotion board. We have blinded our promotion boards to zones. 
We have had boards at the O-6/O-5 level where we have picked up 
to the maximum allowable numbers of below zone folks because we 
have blinded the boards to the zone of those folks. So they are 
picking purely on talent.
    We stood up an Office of Talent Optimization. We have 
relaxed our officer program age restrictions to the maximum 
extent possible unless there are physiological limitations.
    You helped us remove the last remaining restrictions on the 
career intermission pilot program, and we are probably the 
biggest user among the Services. We have had tremendous success 
with aviation department heads who are now females that had 
children, and those women are now squadron commanders of 
aviation squadrons.
    The fleet scholar education program that we put in place 
tours with industry. We are experimenting with targeted reentry 
for Reserve component folks to bring them in in an expedited 
manner, but we are still limited by the scrolling process, 
which is one of the things that we hope to speed up as part of 
our Active to Reserve component permeability, the idea being, 
as Lieutenant General Grosso mentioned, the ability to move 
back and forth quickly.
    Then all these concepts of a merit-based component to the 
pays that are just completely lacking. The current statutes 
allow for, if you interpret them liberally which we would do to 
the maximum extent possible, as we have been encouraged to do--
you could put a merit-based component to some of the retention 
and enlistment bonus authorities, but not solely a merit-based 
pay. So that is the thing that we think we are lacking.
    But we have had tremendous support within OSD and the 
Secretary of the Navy to use that full latitude in the things 
that we are asking for to build that sort of new pyramid and 
put incentives based on good performance and examine some of 
the ways to remove some of the disincentives. I think we are at 
the point where we need to change some statute.
    Thank you.
    Senator Tillis. Thank you.
    General Seamands?
    Lieutenant General Seamands. Mr. Chairman, we are starting 
our review to find out what authorities we need. Every time I 
come over and get a chance to talk to the PSMs [professional 
staff members], they enlighten me a little bit about existing 
authorities and help me get to where I need to be.
    The Secretary of the Army, who you recently confirmed, has 
been very clear that he is all about talent management, and so 
as we start peeling back all the challenges and issues we face, 
I suspect we will explore and discover some cases where we have 
existing authorities we did not realize we had. But I think for 
the most part we understand what they are and employ them 
already.
    Senator Tillis. Well, thank you all. I just wanted to say I 
think the discussion that we had around the work and sharing 
information that goes beyond the personnel file was 
interesting, either the LinkedIn for the Navy. Did you refer to 
that as the IAM program?
    Lieutenant General Seamands. Yes, sir, IAM 2, and 
eventually that will be incorporated into our IPPS, or 
integrated pay and personnel system.
    Senator Tillis. I do think going forward it would be 
interesting to see--I can see where that provides I think 
better visibility into the resources available from the 
perspective of optimizing who ultimately gets the assignment 
and having the command involved in that.
    I would like to go back and talk about the other piece, 
which is really understanding the person. So you have got their 
skills and their past experience, and then the person, back to 
some of the testimony that Mr. Kane raised particularly around 
folks that we may be able to find are moving through the system 
where their next superior should be aware of certain behaviors 
they should look out for, particularly around sexual assault. 
So I will be interested to have that discussion subsequent to 
the committee.
    Ranking Member Gillibrand?
    Senator Gillibrand. Thank you, Mr. Chairman.
    I want to follow up on the sexual assault issue. Lieutenant 
General Grosso, prior to your current assignment, you served as 
the Director of Air Force Sexual Assault Prevention Response in 
the Office of Vice Chief of Staff. In this discussion on 
officer personnel reforms, I think it is important that we note 
the recent changes in career specialization for military 
lawyers. Specifically, in the last two NDAAs, the committee has 
included language creating a pilot program to evaluate and 
improve specialization in criminal litigation, as well as to 
offer career progression in that field and improve 
specialization in criminal litigation, as well as to offer 
career progression in that field that is equivalent to other 
military lawyers. We did this because we recognized the benefit 
to Services in having trained, experienced litigators dealing 
with the most serious criminal cases, including sexual assault.
    I know that the Navy has already developed a complex 
litigation track. Can the other Services please talk a little 
about how they have approached this pilot program? You can go 
first, if you want.
    Lieutenant General Grosso. Senator Gillibrand, ma'am, we 
have implemented a litigation track. We bring in about 120 new 
JAGs a year, and all of them start with getting prosecution 
training. They pick the best of those, and they give them 
additional training. So they will increasingly specialize and 
stay on that litigation track. Now, obviously we are just 
starting this, and we are learning from the Navy. So we will 
watch along the way how it goes. We would like to come back to 
you in a couple years.
    One of the things that our TJAG [The Judge Advocate 
General] is cognizant of is that this litigation is very taxing 
emotionally and mentally. So how do we think about taking care 
of them? One of the ideas that has come up is a career 
intermission program. So we are committed to creating a 
litigation track and helping these litigators be successful 
throughout their career. We will watch the promotions as well. 
That is one of the things, should we make them their own 
competitive category? I think it is too soon to tell, but we 
will definitely be watching that and then watching their 
wellbeing and see if we need to think about something like an 
intermission program if they need some time away from the 
litigation and the stress of the litigation.
    Lieutenant General Rocco. Ranking Member Gillibrand, from 
the Marine Corps at the bases and stations, we have litigators 
or we have SJAs [staff judge advocates] that do nothing but 
sexual assault cases. So we have set those folks apart. We have 
also hired subject-matter experts to provide counsel for those 
lawyers that are dealing in nothing but sexual assault cases.
    As far as SJAs, we only have one special selection category 
in the Marine Corps. You are either restricted or a 
comptroller. We are looking at expanding that to SJAs and some 
other MOSs [military occupational specialties].
    Thank you.
    Lieutenant General Seamands. Senator Gillibrand, thanks for 
the question.
    Within the Army, we have started a pilot that creates a 
separate litigation track to hone those skills over time to 
allow the prosecutors to continue to have repetitive 
assignments in that area. We have also identified a skill 
identification or additional skill identifier for those 
prosecutors that would track them, not only that they occupy 
the position but also their experience in terms of the number 
of cases they have tried and that kind of thing so we can track 
the experience over time. We are also watching the promotion 
boards to make sure that those officers identified are promoted 
at or above the average for everybody else. Additionally, we 
have increased the training for those people along that career 
track to make sure they understand and can hone their skills to 
better support the victims.
    Senator Gillibrand. Do you want to say anything, Vice 
Admiral?
    Vice Admiral Burke. I think you are familiar with our 
career track, ma'am. Again, we are specializing at the O-4, O-
5, and O-6 level. It is about 10 percent of our judge advocate 
general corps. So right now it is right around 90 judge 
advocate generals. Then they get in that career track and they 
stay on the prosecution path. We are going to be expanding it 
slightly over the course of the next year to about another 10 
specializing in that area. But they do occasionally alternate 
out into judge roles as well, as well as victim legal counsel 
to provide the respite from the fatigue that General Grosso 
mentioned, but they are still very close to the courtroom 
environment continuously.
    In terms of the promotion protection, we do provide 
language in the convening order for the boards that directs the 
boards of the special and critical role that the military 
justice litigation career track plays for good order and 
discipline and accountability, which is very important for the 
Navy. It directs the board to favorably consider the valuable 
contributions of superior performance in that career track. As 
a result of that language in the convening order, we monitor 
and ensure that they have a higher than average for the judge 
advocate general corps promotion rate, which they have enjoyed.
    Senator Gillibrand. So would you recommend this to the 
other Services?
    Vice Admiral Burke. The convening order language is an 
effective tool for the way the Navy boards work. I do not know 
if it has the same dynamic in the other Services, but it is 
effective for Navy board dynamics. Yes, ma'am.
    Senator Gillibrand. How, if at all, do you think these 
programs can serve as a model for other specialty and highly 
trained career fields?
    Lieutenant General Grosso. Senator Gillibrand, I would say 
that is what we are thinking about for the technical track. 
What does that look like? What is the path? What is the 
compensation that was brought up by our distinguished panel 
members before? So anybody that needs to specialize in 
something, to your point earlier, we grow breadth but not 
depth, and that is something that we are looking at as we 
relook our performance management system. I think you have 
given us a lot of tools, and that is where we will come back to 
you if we think we do not have enough.
    Lieutenant General Rocco. Ranking Member Gillibrand, from 
the Marine Corps, we are certainly open to taking a look at all 
of that. One thing we have found that even with pilots in 
aviation that we have looked at in detail, we have come to find 
out that marines like being marines first. Even myself, on a 
personal note, having spent 7 years in my first squadron, I was 
ready to leave the squadron and do some other marine things. We 
found that throughout the fields, whether it is lawyers, 
whether it is pilots or comptrollers for that matter. So we are 
looking at that. We are open to that.
    We realize the technical field, cyber in particular, is 
something that we need to take a hard look at because the 
moment you leave that field, I think the spill-up time if you 
come back to the expert that you were is probably a little bit 
longer than some others. So we are sensitive to that fact. So 
we are looking at cyber in particular as a separate career 
track.
    Senator Gillibrand. May I ask one more question on this 
line?
    What other reforms are necessary to ensure we have trained, 
experienced military lawyers in the courtroom and that their 
career progression will not be harmed by their choice to 
specialize in this important field?
    Lieutenant General Rocco. Ranking Member Gillibrand, we are 
looking at SJAs as a separate competitive category so we ensure 
that we have the right people in the right places at the right 
promotion rate and then promoted, if not at fleet average, but 
higher than the fleet average.
    Lieutenant General Grosso. Senator Gillibrand, we already 
have a separate competitive category just for lawyers. So I 
think as we embark on our litigation track, we just need to 
watch that yearly. I took a note to--I think the MOI [military 
occupational information]--get the language right in the MOI 
and then see how we are doing. Are we accomplishing what we 
want? Are they competing; are they not competing? Then what are 
we going to do to fix it.
    Vice Admiral Burke. Yes, ma'am. We are using the separate 
competitive category already, and it has panned out well. The 
protective language for this particular career track has been 
successful. To your earlier question, I think this type of 
career track model is exactly to our vision of the ``up and 
stay'' kind of model. So I think it has a lot of applicability 
for other technical career fields in specialization, exactly 
what we are thinking.
    Senator Gillibrand. Great.
    Lieutenant General Seamands. Senator Gillibrand, within the 
Army, we compete our JAGs within a separate category, and we do 
have the MOI, as the other branches talked about, where we 
focus and highlight things for the board to do. With the skill 
identifier, we also have the ability to have a requirement that 
so many people in that specialty are picked. So we continue to 
monitor that.
    As the Admiral did, going back to the previous question, we 
have set up a separate category called information dominance 
for our cyber technical officers. What we found is in the last 
2 years, we have had two majors, two lieutenant colonels, and 
two colonels boards, and each time the cyber officers have 
competed at or above the same level in terms of the results of 
the other categories. So they are performing. I think we are 
picking the right officers. We have kind of designed the 
information dominance to be a Petri dish, if you will, to test 
things and make sure that we get it right, things that we could 
possibly apply across the entire force.
    Senator Gillibrand. Great.
    Thank you, Mr. Chairman.
    Senator Tillis. Thank you, Senator Gillibrand, and thanks 
to all of you. We feel like that there is a lot that works in 
DOPMA and that we do not want to break something that is not 
broken.
    I also think that your active engagement, as we go through 
the process--we think that there are areas that we can improve 
that we are going to work on language, and we want your active 
participation in that.
    One thing that maybe you should consider--we will keep the 
record open for a week, and for any of the panelists, the prior 
panel or this panel, I would like your feedback either through 
the formal channel or the committee or through communication 
with my staff and the committee staff of some of the things 
that--a kind of a start/stop continued assessment of current 
practices that you would like to make sure for considering 
changes that we are vetting them with you and make sure that it 
is helpful.
    You do a great job. It is an honor to have a panel like 
this before us. We want your continued collaboration in the 
process, and we appreciate you being here today and your 
service to our great Nation.
    We will be, again, keeping the record open for a week, and 
thank you.
    This meeting is adjourned.
    [Whereupon, at 4:32 p.m., the committee adjourned.]

    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Ben Sasse
       marine corps direct commission and lateral entry programs
    1. Senator Sasse. Lieutenant General Rocco, the Marine Corps is 
very serious about Marine officers earning the right to wear the Eagle, 
Globe, and Anchor by completing Officer Candidate School or 
commissioning through the United States Naval Academy. Following 
commissioning, officers attend the 6-month long Basic School in 
Quantico, Virginia. Does the current Marine Corps model of officer 
commissioning and training, which requires the longest basic training 
program of all the services, hinder its ability to recruit officers 
with highly technical backgrounds needed for fields like cyber? Has the 
Marine Corps considered any type of lateral entry or direct commission 
program for officers with needed technical skills?
    Lieutenant General Rocco. The Marine Corps has had no issues 
attracting highly skilled and qualified marines across a diverse 
population. The current model develops and instills the necessary 
skills and ethos demanded of a Marine officer to capably employ 
combined arms in a variety of complex and technical fields. Experienced 
and well-rounded Marine Air-Ground Task Force officers are foundational 
to the Marine Corps lethality and the expeditionary capabilities unique 
to our Service. Additionally, we are still developing a cyber 
occupational field. Until we have identified and developed the 
requirements for cyber, it is too soon to tell what the impacts on 
recruiting will be.
    Lateral entry has been considered within the constructs of title 
10, but the Marine Corps is not currently pursuing this avenue. The 
USMC may see future benefit to lateral entry or constructive credit, 
however potential impacts to promotion and retention must be carefully 
studied.
                    professional military education
    2. Senator Sasse. Lieutenant General Seamands, Vice Admiral Burke, 
Lieutenant General Grosso, Lieutenant General Rocco, given that a newly 
commissioned second lieutenant with a Cyber Military Occupational 
Specialty (MOS) will not be taught by officers who have only served in 
the cyber field, what steps are you taking to ensure that in 20 years, 
these cyber officers will have the same skill level as their peers in 
armor, logistics, aviation, supply, or artillery?
    Lieutenant General Seamands. This challenge is being addressed in 
three phases and will ensure that the cyber officers instructing cyber 
officers will have the same skill level as their peers. The three-phase 
solution includes: (1) select the highest quality contracted 
instructors, many whom have Cyber Mission Force or similar experience, 
to instruct our newly appointed cyber officers; (2) replace contracted 
instructors over the next 1 to 5 years with cyber officers who have 
served a tour of duty in the Cyber Mission Force; and then (3) assign, 
within 6 to 8 years, cyber officers who have spent an entire career in 
the Cyber branch to the Army Cyber School to instruct newly appointed 
cyber officers.
    Vice Admiral Burke. Navy currently has three officer designators 
that distinguish specialization within the cyber community. Cryptologic 
Warfare (1810) officers, specialists in Signals Intelligence (SIGINT), 
Offensive Cyberspace Operations (OCO) and Electronic Warfare, have been 
serving at the forefront of those disciplines since World War II. 
Information Professional (1820) officers, specialists in communications 
and Defensive Cyberspace Operations (DCO), have been continuing to 
mature these fields since the designator's inception in fiscal year 
2002. Cyber Warfare Engineering (1840) officers, established in fiscal 
year 2010, are specialists within the cyber community as software 
developers, programmers, and cyber capability developers. By having 
specialists in OCO, DCO and cyber capability development, we are 
uniquely postured to ensure each designator is able to respond to 
constantly evolving demands on Navy forces within the cyber domain. 
This ensures cyber officer skill levels are commensurate with 
specialties officers in other warfare areas develop over the course of 
their careers.
    Lieutenant General Grosso. The Air Force utilizes a combination of 
military, civilian, and contractor instructors in our cyberspace 
initial skills and advanced level training. Instructors are selected 
based on their experience as cyberspace operators and their mastery of 
the associated technology. We deliberately select military instructors 
with strong operational experience to ensure the latest operational 
perspective, experiences, tactics, techniques and procedures are 
provided to students. Additionally, the Air Force has implemented a 
self-paced learning program for the enlisted force and are looking to 
begin a pilot program for the officer corps.
    Lieutenant General Rocco. Warfare has grown increasingly technical 
and operations in the information environment have become vital to set 
the stage for success before battle is ever enjoined. Skilled and 
capable officers who operate effectively in highly technical areas like 
cyber have many of the same qualities we want in all of our officers. 
Valued for their skills, our cyber professionals must first and always 
develop and exercise basic principles of leadership required in marines 
of any background. The most important qualities in the force remain 
leadership, performance, and the collective experiences that imbue the 
officer with the knowledge and understanding needed to succeed in 
arduous conditions and austere environments.
    All Marine officers receive a diverse array of training anchored in 
a common core at The Basic School. Marine officers with expertise in 
cyber have historically originated from all over the Corps. Talent has 
been harvested across various specialties, but at the present time, 
most of that expertise taught routinely in the Intelligence and 
Communications fields will be coupled to support the 17xx Cyber 
Occupational Field. Over the years, marines have built a significant 
trove of tactics, techniques, and procedures that undergird our 
approach to training. The development pathways continues to evolve for 
cyber professionals in the DOD, and the Marine Corps continues to adapt 
to meet shifts in technology. The Marine officers who enter the cyber 
field will learn these hard-won lessons accumulated over time and be 
challenged to meet high technical standards along the way.
                     maximum age for commissioning
    3. Senator Sasse. Lieutenant General Seamands, Vice Admiral Burke, 
Lieutenant General Grosso, Lieutenant General Rocco, each of the 
Services has instituted a lower maximum age for incoming officers than 
DOPMA requires. Given that each of the service secretaries can waive 
this requirement, how often have they done so and how do they see 
waivers factoring into their ability to bring civilians with cyber 
expertise into the military?
    Lieutenant General Seamands. The Army routinely exercises the 
authority to grant age waivers for officer candidates, particularly for 
those with special skills, granting nearly 1,000 in the Regular Army 
alone since 2014. The Army normally seeks to minimize waivers within 
basic branches in part because physical demands are highest on young 
lieutenants in these branches and individuals older than 35 have a more 
difficult time keeping pace with younger soldiers. The Cyber branch 
direct commissioning program under Army Directive 2017-26 does not 
employ a fixed age limit in policy. In practice, we still prefer 
younger applicants, but the Army already considers individuals up to 
the statutory limit based on the skills, education, and experience they 
have.
    Vice Admiral Burke. Applicants for Cryptologic Warfare (1810) and 
Information Professional (1820) designators may enter the Navy up to 42 
years of age at time of commissioning per 10 U.S.C. Sec. 532. In fiscal 
year 2010, we established a Cyber Warfare Engineering (1840) officer 
designator, and set the maximum age at 35 years old at time of 
commissioning. We granted one age waiver in 2017, and have since 
decided to revise the maximum age at 42 years at time of commissioning.
    Lieutenant General Grosso. In the past 3 years, the Air Force has 
approved 5 requests across all career fields. Though these requests are 
rare, the Air Force increased the maximum age for commissioning from 
age 35 to age 40 in August 2017. This increase provides the Air Force a 
wider pool of applicants and affords highly qualified individuals the 
opportunity to receive a commission through the Air Force. All waiver 
requests are thoroughly reviewed.
    Lieutenant General Rocco. Over the past 3 years, 90 age waivers 
were submitted and routed for higher approval. Of those waivers, 75 
were approved (83 percent approval rate) that facilitated the applicant 
to continue their process in the officer program which they were 
pursuing. In fiscal year 2017, Marine Corps Recruiting Command was 
delegated the ability to approve waivers submitted for applicants that 
are between the ages of 27 years 6 months and 29 years old. This lower 
level of age-waiver approval authority expedites the application and 
approval process.

    4. Senator Sasse. Lieutenant General Seamands, Vice Admiral Burke, 
Lieutenant General Grosso, Lieutenant General Rocco, does the lack of a 
national cyber strategy or cyber policy impact your Service's thinking 
on age waivers and the minimum number of years a newly commissioned 
officer could serve before reaching mandatory retirement age?
    Lieutenant General Seamands. While a national cyber strategy and 
policy would certainly help inform our decision-making, current 
accession planning uses all available authorities to pursue highly 
qualified cyber specialists.
    Vice Admiral Burke. The lack of a National Cyber Strategy or Cyber 
Policy does not impact our views on age waivers or the minimum number 
of years a newly commissioned officer can serve before reaching 
mandatory retirement age.
    Lieutenant General Grosso. The lack of a national cyber strategy 
does not impact the Air Force's thinking on age waivers. The Air Force 
bases recruiting and accession efforts on mission requirements and has 
not seen any notable amount of age waiver requests across all career 
fields.
    Lieutenant General Rocco. The cyber field has not impacted our 
views on age waivers and the minimum number of years a newly 
commissioned officer could serve before reaching mandatory retirement 
age. While the Marine Corps has instituted a lower maximum age for 
incoming officers, the flexibility provided under DOPMA allows us to 
waive the service age requirement if a candidate is exceptionally 
qualified.
          recruiting and retaining officers in the cyber field
    5. Senator Sasse. Lieutenant General Seamands, Vice Admiral Burke, 
Lieutenant General Grosso, Lieutenant General Rocco, explain how your 
Service intends to recruit and retain qualified officers in the cyber 
field, how it plans to expand their skill sets while they serve, and 
how, if at all, DOPMA's existing structure makes these tasks more 
difficult.
    Lieutenant General Seamands. The Cyber Branch intends to continue 
to recruit the bulk of our cyber officers via the ROTC [Reserve Officer 
Training Corps] program (55 for fiscal year 2018), USMA (20 for fiscal 
year 2018), and OCS (12 for fiscal year 2018); however, we are expected 
to access several additional cyber officers in fiscal year 2018 via the 
Cyber Specialty Direct Commission Pilot Program, which runs through 
January 2022. Broadening assignments such as Training with Industry and 
Advanced Civil Schooling provide opportunities for advanced education 
and real-world experience, which enriches the officers' skill-sets and 
aids in retention. While some modifications could be made, DOPMA's 
existing structure does not significantly impede development or 
retention. We would ask that future revisions to DOPMA expand the 
accessions authority by removing or increasing the caps on constructive 
credit to allow for lateral entry at higher grades. For instance, as 
currently drafted, 10 U.S.C. 533 does not allow the Army to exceed a 3 
year credit for a cyber officer. Highly qualified applicants sometimes 
have a PhD and multiple years of high level experience. These 
individuals are needed in management positions at higher grades and not 
as captains. The lack of authority to make these individuals majors or 
lieutenant colonels impacts the ability to recruit certain talent sets.
    Vice Admiral Burke. Navy's core cyber officer designators are 
Cryptologic Warfare (1810), Information Professional (1820), and Cyber 
Warfare Engineering (1840). Continuation rates for each designator 
remain at, or above, Navy averages. Each has consistently met targeted 
accession goals, and promoted at the same rate, or more quickly, than 
the officer corps in the aggregate. To expand their skills while they 
serve, we have developed tailored training that enables cyber workforce 
personnel to effectively conduct offensive and defensive cyber 
operations. For instance, cyberspace operations training is being 
delivered to an increasing number of officers through professional 
military education, and undergraduate and graduate school curriculums. 
We have also integrated cyber training into other leadership 
development courses throughout the ranks. Finally, systems and 
operational commands identified enhanced users requiring specialized 
cybersecurity training based on the roles they perform e.g., certain 
engineers will receive training designed to help better-defend unique 
networks and systems. The Defense Officer Personnel Management Act 
(DOPMA) structure does not allow enough constructive credit to recruit 
and retain Cyber officers with high end skills. Reforming DOPMA will 
offer greater flexibility for accessing the talent we need and in 
responding to increasing retention challenges caused by the improving 
economy and growing demand for cyber skills in the civilian sector.
    Lieutenant General Grosso. The Air Force continues to fill the 
cyber field with highly qualified candidates. Requirements are met 
through aggressive advertising and marketing campaigns in addition to 
recruiters participating in cyber related events. These events include 
FIRST Robotics, Science and Engineering Festival, Drone Racing League, 
eLeague and Major League Hacking along with several other STEM and 
cyber related events. To expand skillsets, cyber officers are sent to 
deliberate and specialized Air Force and industry training at key 
development points in their careers. At this time, DOPMA's existing 
structure does not negatively impact our recruitment or retention 
efforts.
    Lieutenant General Rocco. We welcome additional authorities and 
flexibilities as long as they are left up to the discretion of the 
Services to utilize and are not mandated.
    Our top priority at this time is the authority to adjust lineal 
numbers on a promotion board based on merit. Our approach to developing 
officers in the cyber arena is similar to how we retain other highly 
skilled professionals. Similar to ground, law, and air contracts, a 
Marine Corps cyber contract is being considered for implementation to 
identify and nurture those with talent in cyberspace operations. The 
USMC may see future benefit to lateral entry or constructive credit, 
however potential impacts to promotion and retention must be carefully 
studied. Given the size and composition of our force, these measures 
are not indicated at this time.
    A very real way to improve retention of officers with the 
leadership, skills, and experience for the current and future fight is 
to maintain and fund bonuses and incentive pays. We will increasingly 
depend on these incentives in the future in order to retain officers 
and enlisted marines in critical skills or in high-demand/low-density 
occupations.
                               __________
            Questions Submitted by Senator Claire McCaskill
                     losses to the civilian sector
    6. Senator McCaskill. Lieutenant General Seamands, Vice Admiral 
Burke, Lieutenant General Grosso, Lieutenant General Rocco, besides 
cyber and aviation specialties which other Military Occupational 
Specialties is the military at the greatest risk of losing talented 
personnel to the civilian sector and what reforms to DOPMA are 
necessary to address these challenges?
    Lieutenant General Seamands. Other than the specialties you have 
identified, our models have not identified any additional specialties 
that would require any reform to DOPMA as our authorized retention 
tools have proved adequate. Like they do in any large organization, 
people depart the Army for a variety of reasons. Our analysis provides 
that we retain the vast majority of our most talented officers and non-
commissioned officers. While some attrition is necessary to maintain a 
balanced force, selective changes to the up-or-out provisions and 
flexibility on when promotion consideration occurs may be helpful in 
retaining top talent in certain specialties.
    Vice Admiral Burke. While all officer communities are at risk to 
losing talented personnel to the civilian sector, Surface Warfare 
(nuclear) and Naval Special Warfare are the other Navy communities at 
greatest risk. We support the ongoing assessment of the Defense Officer 
Personnel Management Act (DOPMA), directed by the National Defense 
Authorization Act of Fiscal Year 2018, and are particularly interested 
in reforms that would increase career flexibility and potentially 
improve retention through promotion merit reordering, deferral of 
promotion consideration, and increasing permeability between the 
regular and Reserve components.
    Lieutenant General Grosso. The skills, training and work ethic of 
our airmen are consistently sought after by the public sector. 
Recognizing that an improving economy could impact retention, the Air 
Force has looked to industry and academia to link economic indicators 
to Air Force specialties. This linkage assists in predicting future 
retention trends and the opportunity to offset with various force 
management programs such as retention bonuses in hard-to-fill 
specialties like cyber system operators, combat controllers and 
airborne linguists. The Air Force analyzes manning, retention, 
retention trends, and training costs to determine which skills to 
consider for bonuses while accounting for losses to the civilian 
sector. The Air Force continues to assess the impacts of the increased 
authority for constructive credit and the authority for direct 
commissions for cyber officers, and will evaluate the need of any 
further changes to authorities within DOPMA.
    Lieutenant General Rocco. The Marine Corps closely monitors the 
inventory and retention of all MOSs to ensure we maintain a healthy 
officer corps. There are no additional MOSs that we assess as high risk 
to losing personnel to the civilian sector. Currently DOPMA provides 
ample flexibility to retain and manage the force.
                        acquisition specialists
    7. Senator McCaskill. Lieutenant General Seamands, Vice Admiral 
Burke, Lieutenant General Grosso, Lieutenant General Rocco, with 
officers rotating to new assignments approximately every 3 years, there 
is a significant amount of institutional turn over which often leads to 
challenges in accountability when defense programs are delivered late 
or over cost. What reforms to DOPMA would you recommend to help the 
Services maintain continuity within the acquisition and program manager 
fields and Congress exercise its accountability role over the 
Department of Defense?
    Lieutenant General Seamands. While there is rotation of personnel 
within the acquisition and program manager fields, the statutory tenure 
for all critical acquisition positions is 3 years, while Project 
Managers of Major Defense Acquisition Programs have a 4 year statutory 
tenure. I am aware the Assistant Secretary of the Army (Acquisition, 
Logistics and Technology) intends to review personnel management of our 
acquisition personnel. It would be premature for me to comment on any 
recommended changes to DOPMA until the review is complete.
    Vice Admiral Burke. Navy supports the ongoing assessment of the 
Defense Officer Personnel Management Act (DOPMA) directed by the 
National Defense Authorization Act of Fiscal Year 2018. We believe that 
reforms that would authorize promotion merit reordering, voluntary 
deferral of promotion consideration, and lateral entry, could help 
maintain continuity within the acquisition and program manager fields, 
while preserving Congress' accountability role over the Department of 
Defense.
    Lieutenant General Grosso. Changes to DOPMA are not necessary to 
maintain continuity within the acquisition and program manager fields 
and to assist Congress in its accountability role over the Department 
of Defense. The 2016 NDAA pushed for increased accountability and 
stability in major defense acquisition programs by tying tenure for 
lead Program Managers and other key personnel to critical milestones 
within a program's development schedule (Milestone B and Initial 
Operational Capability) versus a set 4-year duration. Furthermore, the 
civilian acquisition workforce provides program continuity in the 
instance of military rotation. Since the acquisition workforce is 
comprised of 76 percent civilians, the civilian workforce has a 
pronounced effect on program continuity and stability. There are a 
large number of civilian leaders assigned to the various program 
offices that provide further continuity.
    Lieutenant General Rocco. Marine Corps acquisition officers are not 
subject to normal assignment policy in terms of duration or Time on 
Station. Turnover does not lead to accountability issues. Marine 
acquisition officers are leading the Marine Corps acquisition programs. 
When a marine is selected to fill key leadership positions or critical 
acquisition positions, the Marine Corps' assignment policies do not 
interfere with the marine's acquisition program duties and 
responsibilities, nor do they prevent full execution of statutory 
tenure requirements. Program execution challenges, if they exist, are 
independent of USMC assignment policy and DOPMA requirements.

                                 [all]
</pre></body></html>
